<html>
<title> - EXAMINING THE COSTS OF FEDERAL OVERREACH INTO SCHOOL MEALS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
       EXAMINING THE COSTS OF FEDERAL OVERREACH INTO SCHOOL MEALS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 13, 2011

                               __________

                           Serial No. 112-23

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
66-134                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>  


                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California            Lynn C. Woolsey, California
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Carolyn McCarthy, New York
Tim Walberg, Michigan                John F. Tierney, Massachusetts
Scott DesJarlais, Tennessee          Dennis J. Kucinich, Ohio
Richard L. Hanna, New York           David Wu, Oregon
Todd Rokita, Indiana                 Rush D. Holt, New Jersey
Larry Bucshon, Indiana               Susan A. Davis, California
Trey Gowdy, South Carolina           Raul M. Grijalva, Arizona
Lou Barletta, Pennsylvania           Timothy H. Bishop, New York
Kristi L. Noem, South Dakota         David Loebsack, Iowa
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania
[Vacant]

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                  DUNCAN HUNTER, California, Chairman

John Kline, Minnesota                Dale E. Kildee, Michigan
Thomas E. Petri, Wisconsin             Ranking Minority Member
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Richard L. Hanna, New York           Carolyn McCarthy, New York
Lou Barletta, Pennsylvania           Rush D. Holt, New Jersey
Kristi L. Noem, South Dakota         Susan A. Davis, California
Martha Roby, Alabama                 Raul M. Grijalva, Arizona
Mike Kelly, Pennsylvania             Mazie K. Hirono, Hawaii
[Vacant]                             Lynn C. Woolsey, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 13, 2011.....................................     1

Statement of Members:
    Hanna, Hon. Richard L., a Representative in Congress from the 
      State of New York, questions submitted for the record......    39
    Hunter, Hon. Duncan, Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     3
    Kildee, Hon. Dale E., ranking member, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Castaneda, Karen, director of food service, Pennridge School 
      District...................................................    12
        Prepared statement of....................................    14
        Responses to questions submitted for the record..........    39
    Hecht, Kenneth, California Food Policy Advocates.............    16
        Prepared statement of....................................    17
    Sackin, Barry, SNS, owner, B. Sackin and Associates..........    21
        Prepared statement of....................................    23
    Spero, Sally, SNS, food services planning supervisor, San 
      Diego Unified School District..............................     7
        Prepared statement of....................................     9
        Responses to questions submitted for the record..........    40


       EXAMINING THE COSTS OF FEDERAL OVERREACH INTO SCHOOL MEALS

                              ----------                              


                          Friday, May 13, 2011

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 11:30 a.m., in 
room 2175, Rayburn House Office Building, Hon. Duncan Hunter 
[chairman of the subcommittee] presiding.
    Present: Representatives Hunter, Kline, Foxx, Kildee, 
Davis, Hirono, and Woolsey.
    Also present: Representative Miller.
    Staff present: Katherine Bathgate, Press Assistant/New 
Media Coordinator; James Bergeron, Director of Education and 
Human Services Policy; Casey Buboltz, Coalitions and Member 
Services Coordinator; Heather Couri, Deputy Director of 
Education Policy; Daniela Garcia, Professional Staff Member; 
Jimmy Hopper, Legislative Assistant; Barrett Karr, Staff 
Director; Krisann Pearce, General Counsel; Mandy Schaumberg, 
Education and Human Services Oversight Counsel; Alex 
Sollberger, Communications Director; Alissa Strawcutter, Deputy 
Clerk; Tylease Alli, Minority Hearing Clerk; Daniel Brown, 
Minority Junior Legislative Assistant; Ruth Friedman, Minority 
Director of Education Policy; Kara Marchione, Minority Senior 
Education Policy Advisor; and Helen Pajcic, Minority Education 
Policy Advisor.
    Chairman Hunter. Good morning. A quorum being present, the 
subcommittee will come to order. Good morning and welcome to 
our guests. I would like to thank our witnesses for joining us. 
We look forward to your testimony.
    Today we will examine the costs associated with the recent 
reauthorization of federal child nutrition programs. We 
typically think of costs in terms of dollars and cents; 
however, as is often the case with federal laws and 
regulations, there is an additional cost that can't be measured 
by any agency, bureaucrat or budget office.
    When it comes to the nation's schools, that additional cost 
comes in the form of already scarce resources directed away 
from the classroom and energy spent complying with federal 
mandates instead of providing children with the quality 
education they need to succeed in life.
    Here in our nation's capital, we sometimes forget good 
intentions can lead to bad consequences. As members of the 
subcommittee charged with overseeing federal education 
policies, we must consider very carefully any regulation, law 
or policy that leverages additional burdens on schools, 
potentially undermining the ability to educate children. That 
is why the action taken during the final days of the 111th 
Congress was so troubling and demands review.
    Despite concerns raised by school administrators, 
taxpayers, a bipartisan coalition of state governors and 
leaders of the nation's school boards, the previous Democrat 
majority pursued a massive and costly expansion of the federal 
government's role in child nutrition.
    The resulting laws put the Department of Agriculture in the 
business of determining the amount of calories, fat and sodium 
students should consume in a given school day. I would like to 
just repeat--the Department of Agriculture.
    The agriculture secretary is now telling schools the type 
of milk, vegetables and grain that cannot be served in 
cafeterias. The law places greater federal control over 
wellness policies best left in the hands of state and local 
leaders.
    As if this massive federal overreach wasn't enough, the law 
also forces schools to charge families, who do not qualify for 
free or reduced price meals, more money for their children's 
school meals. Let us call this what it is, a tax like on 
middle-class families.
    Two years after implementation, the cost of a school 
breakfast may increase by more than 25 cents. The cost of a 
school lunch will have increased by more than 7 cents, an 
increase that exceeds any additional assistance the law 
provides schools. It might sound small, but the total 
compliance costs will reach $6.8 billion by 2016. These are 
costs that will fall heavily on the states and schools.
    These aren't numbers cooked up by conservative think tanks. 
The estimates come from the Department of Agriculture's own 
analysis of the law and the regulations associated with it. The 
American Association of School Administrators has stated that 
these extra costs represent a direct, unfunded mandate imposed 
on state and local education agencies.
    The recent child nutrition law is one more in a series of 
burdens placed on states and schools already strained by a 
tough economy. According to the left-leaning Center on Budget 
and Policy Priorities, 44 states and the District of Columbia 
are struggling with combined budget deficits of roughly $144 
billion.
    These difficult fiscal challenges have already forced most 
states to make tough choices, and this expansion of federal 
child nutrition policies will exacerbate the challenges that 
they face.
    Let me be clear. We all want to combat child hunger and 
improve the health and well-being of low-income families. 
However, we should reject the false choice between our support 
of child nutrition and the critical need to rein in the size 
and cost of the federal government.
    It is now our responsibility to examine the challenges and 
consequences this new law will bring to states and schools. We 
have a strong panel of witnesses that will help us do just 
that.
    I would now like to recognize the ranking member, Mr. Dale 
Kildee, for his opening remarks.
    Good morning, Dale.
    [The statement of Chairman Hunter follows:]

  Prepared Statement of Hon. Duncan Hunter, Chairman, Subcommittee on 
          Early Childhood, Elementary, and Secondary Education

    A quorum being present, the subcommittee will come to order.
    Good morning and welcome to our guests. I would like to thank our 
witnesses for joining us; we look forward to your testimony.
    Today, we will examine the costs associated with the recent 
reauthorization of federal child nutrition programs. We typically think 
of costs in terms of dollars and cents. However, as is often the case 
with federal laws and regulations, there is an additional cost that 
can't be measured by any agency, bureaucrat, or budget office.
    When it comes to the nation's schools, that additional cost comes 
in the form of already scarce resources directed away from the 
classroom and energy spent complying with federal mandates instead of 
providing children with the quality education they need to succeed in 
life.
    Here in our nation's capital, we sometimes forget good intentions 
can lead to bad consequences. As members of the subcommittee charged 
with overseeing federal education policies, we must consider very 
carefully any regulation, law, or policy that leverages additional 
burdens on schools, potentially undermining their ability to educate 
children. That is why the action taken during the final days of the 
111th Congress was so troubling and demands review.
    Despite concerns raised by school administrators, taxpayers, a 
bipartisan coalition of state governors, and leaders of the nation's 
school boards, the previous Democrat Majority pursued a massive and 
costly expansion of the federal government's role in child nutrition.
    The resulting law has put the Department of Agriculture in the 
business of determining the amount of calories, fat, and sodium 
students should consume in a given school day. The Agriculture 
Secretary is now telling schools the type of milk, vegetables, and 
grains that can and cannot be served in cafeterias. The law places 
greater federal control over wellness policies best left in the hands 
of state and local leaders.
    As if this massive federal overreach wasn't enough, the law also 
forces schools to charge families who do not qualify for free or 
reduced-price meals more money for their children's school meals. Let's 
call this what it is: a tax hike on middle-class families.
    Two years after implementation, the cost of a school breakfast may 
increase by more than 25 cents. The cost of a school lunch will have 
increased by more than 7 cents, an increase that exceeds any additional 
assistance the law provides schools. The total compliance costs will 
reach $6.8 billion by 2016, costs that will fall heavily on states and 
schools.
    These aren't numbers cooked up by conservative think tanks. The 
estimates come from the Department of Agriculture's own analysis of the 
law and the regulations associated with it. The American Association of 
School Administrators has stated these extra costs ``represent a direct 
unfunded mandate'' imposed on state and local education agencies.
    The recent child nutrition law is one more in a series of burdens 
placed on states and schools already strained by a tough economy. 
According to the left-leaning Center on Budget and Policy Priorities, 
44 states and the District of Columbia are struggling with combined 
budget deficits of roughly $144 billion. These difficult fiscal 
challenges have already forced most states to make tough choices, and 
this expansion of federal child nutrition policies will exacerbate the 
challenges they face.
    Let me be clear: We all want to combat child hunger and improve the 
health and well-being of low-income families. However, we should reject 
the false choice between our support of child nutrition and the 
critical need to rein in the size and cost of the federal government.
    It is now our responsibility to examine the challenges and 
consequences this new law will bring to states and schools. We have a 
strong panel of witnesses that will help us to do just that.
    I would now like to recognize the Ranking Member, Mr. Dale Kildee, 
for his opening remarks.
                                 ______
                                 
    Mr. Kildee. Good morning, Mr. Chairman. Thank you very, 
very much.
    We are here today to examine implementation of the landmark 
child nutrition law that Congress passed last year.
    As all of you know, but I will still say it, this program 
began originally under President Harry Truman, because we found 
out during World War II that many of the people who were 
disqualified medically, not passing their physicals and going 
into the military, was because they had had poor nutrition when 
they were very young growing up, and that poor health plagued 
them the rest of their lives, as they could not serve in the 
military. So Harry Truman started that program so we would have 
a healthy nation to serve our nation in various ways.
    I have been involved in this program here in Congress for 
35 years. But then I taught school for 10 years before that and 
was involved in various aspects of the school lunch program. I 
tell people I think I started the first breakfast program for 
one person back in about 1955 at Central High School.
    Some of you have heard me tell this story before, but I 
found out that in my homeroom someone's lunch was being stolen 
every day. And I was raised in a family where we had to 
memorize the 10 Commandments, and ``thou shalt not steal'' was 
very, very important.
    And I thought to steal someone's lunch was the lowest of 
the low to steal someone's food, so I set a little trap and 
caught the young man who was stealing the lunch. And stealing 
under our principal was very strict. It was a 2-week suspension 
from school.
    I caught him, but found out that he came from a home where 
his mother never was able for various reasons to get up in the 
morning and get him anything to eat, so his job when he got to 
school every morning was to get something to eat. So he would 
steal someone's lunch.
    But then he said, ``Mr. Kildee, I never steal the same 
lunch from the same person in the same week.'' And I figured 
this kid has morality. That is pretty good, you know. I had a 
little theology in my background, too. I thought that is pretty 
good. He was spreading out the cost there.
    But we have people, you know, who especially are hungry. 
Then we have a problem now also of obesity. You know, it is not 
just how much food you have. It is the nutritional value of 
that food and how it will help you develop. And that 
development is really both mental and physical development. So 
this is an extremely important program. To get good nutrition, 
particularly in those early years, is very, very important.
    So I will submit my entire opening statement for the 
record, because we want to hear from you.
    I thank you again, Mr. Chairman, for having this hearing.
    [The statement of Mr. Kildee follows:]

  Prepared Statement of Hon. Dale E. Kildee, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary, and Secondary Education

    Good morning. We are here today to examine implementation of the 
landmark child nutrition law Congress passed last year, including the 
proposed new nutrition standards. As some of you may know, the first 
federal school meal programs began under President Harry Truman, who 
recognized in the aftermath of World War II that thousands of young men 
could not pass the physical for military service due to malnutrition. 
In response, Congress passed the Richard B. Russell National School 
Lunch Act in 1946, which created the National School Lunch Program to 
help put American children on a lifelong path to proper health and 
nutrition. Back then, we were worried about kids not getting enough 
calories, but today, we are also worried about them getting too many.
    Childhood obesity is a devastating epidemic that threatens our 
nation's health care system and national security.
    Senior military leaders estimate that more than 27 percent of 
Americans age 17 to 24 (over nine million men and women) are too heavy 
to join the military. Being overweight or obese is the top reason why 
applicants fail to qualify for military service.
    Obesity causes heart disease, cancer and diabetes. This epidemic 
adds nearly $150 billion per year to national health care costs, about 
half of which are paid by taxpayers through Medicare and Medicaid. As 
we did more than 60 years ago, Congress again must address this crucial 
issue. With one-third of children classified as overweight or obese, 
the status quo is unacceptable. All children deserve healthy and 
nutritious meals.
    In my own experience as a high school teacher, I saw children come 
to school hungry because they hadn't eaten a healthy breakfast. As a 
result, they had difficulties paying attention in school and suffered 
academically.
    At that time, there was no school breakfast program in place to 
address these inequalities, and I felt compelled to personally help 
these needy children.
    Last year, Congress passed S. 3307, the Healthy, Hunger-Free Kids 
Act, with bipartisan support. The bill passed the Senate with unanimous 
consent, and then the House through support on both sides of the aisle. 
In fact, more than 1,300 anti-hunger, public health, anti-poverty, 
education and faith groups supported our work.
    The bill improves the nutritional quality of school meals to make 
the best use of taxpayer dollars. It supports districts that comply 
with new federal nutrition standards, which haven't been updated in 15 
years and have fallen behind current dietary recommendations. The bill 
also expands access to afterschool and summer meal programs, as well as 
introducing children to local agriculture through Farm to School 
programs.
    Over the past few decades, school nutrition has improved. But 
sadly, many meals are still too high in saturated fat and sodium, and 
children aren't getting enough fruits, vegetables and whole grains. 
While there are many forward-thinking leaders in school nutrition 
programs, they cannot make the necessary changes alone.
    As the USDA implements the law through a science-based process, we 
should draw from the many success stories and continue to examine how 
best to make school meal programs work effectively and efficiently. 
This will be a deliberative process that will consist of proposed 
regulations, public comments, rulemaking and oversight. But one thing 
is certain: we cannot move backwards. Our country and our children 
cannot afford that.
                                 ______
                                 
    Chairman Hunter. I thank the gentleman for his wisdom and 
his stories. We all appreciate them. I mean, you have two 
different spectrums here. I am 34, so I didn't do anything in 
1955, I don't think. But here we are.
    Pursuant to committee rule 7C, all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record. And without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    Now for introduction of the witnesses, it is now my 
pleasure to introduce our distinguished panel of witnesses.
    Ms. Sally Spero--and please correct me if I mispronounce 
your name, is the food planning supervisor for the San Diego 
Unified School District.
    And thank you for coming all the way out here. Are you 
flying back tonight? Well, good, okay. So am I. Maybe we will 
be on the same flight.
    She has more than 25 years of experience in the child 
nutrition field.
    San Diego Food Services has received many accolades and 
awards from groups such as the USDA Western Regional Office, 
the California School Boards Association, the Whole Grains 
Council, and the Physicians Committee for Responsible Medicine.
    She is the recipient of the 2009 famed Silver Spirit Award 
recognizing a person in a management position who has made a 
significant contribution to the child nutrition field.
    Next is Ms. Karen Castaneda--good, oh, I see, is the 
director of nutritional services for the Pennridge School 
District located in Bucks County, Pennsylvania. She is a 
registered licensed dietitian with an MBA in marketing and has 
more than 23 years experience in managing the delivery of 
nutrition and clinical services to clients and customers in 
corporate health care and school environments.
    She also serves as the chair of the Food Service Committee 
for the Pennsylvania Association of School Business Officials 
and is actively involved with the School Nutrition Association 
of Pennsylvania.
    Next is Mr. Kenneth Hecht. He is a public-interest attorney 
with more than 15 years of experience in the field. He is a co-
founder of California's Food Policy Advocates, a statewide 
public policy and advocacy organization dedicated to improving 
the health and well-being of low-income Californians by 
increasing their access to nutritious and affordable food.
    Partnering closely with the academic researchers, 
California Food Policy Advocates have developed innovative, 
science-based strategies that are operating now to improve the 
nutritional quality, modernize operation, and expand 
participation in each of the major federal food programs.
    Mr. Barry Sackin--good? Okay--is a nationally recognized 
expert with more than 30 years experience in child nutrition 
and the school food service industry. He was a director of 
child nutrition programs for the Grossmont High School 
districts and schools in Anaheim, California--now, that is not 
Grossmont Union in San Diego, too; well, that is my school 
district; the food was good when I was there, so thank you--
from 1997 to 2005. Mr. Sackin was vice president for public 
policy for the School Nutrition Association. He started a 
consulting firm for school districts, state agencies and a 
number of corporations with a strong presence in school food 
service. He was an external reviewer of reports for both phases 
of the Institute of Medicine recommendations for the proposed 
menu planning rule.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. You will each have 
5 minutes to present your testimony. When you begin, the light 
in front of you will turn green. When 1 minute is left, the 
light will turn yellow. And when your time is expired, the 
light will turn red. At that point I would ask each of you to 
wrap up your remarks as best as you are able.
    After everyone has testified, members will each have 5 
minutes to ask questions of the panel.
    With all of that being said, welcome. And I would now like 
to recognize Ms. Spero for 5 minutes.

 STATEMENT OF SALLY SPERO, FOOD PLANNING SUPERVISOR, SAN DIEGO 
                    UNIFIED SCHOOL DISTRICT

    Ms. Spero. Good morning, Chairman Hunter, Congressman 
Kildee and members of the subcommittee. I am Sally Spero, food 
services planning supervisor for the San Diego Unified School 
District.
    I have worked in the school nutrition field for over 25 
years and have served in my present capacity for 14 years. 
Thank you for the opportunity to testify on the impact of the 
proposed school meal requirements and the recent child 
nutrition reauthorization.
    The San Diego Unified School District is the seventh 
largest school district in the nation, serving over 132,000 
students, 60 percent of which are eligible for free and reduced 
price meals. Guided by our leader, Gary Petill, we serve over 
24 million meals and snacks yearly.
    We have much to be proud of in our district. Our award-
winning Kid's Choice Cafe established a salad bar program in 
each elementary school and shows students that it is cool to 
eat at school.
    We were among the pioneers of the Breakfast in the 
Classroom Program, dramatically increasing breakfast 
participation for needy children. Our summer lunch program, the 
Summer Fun Cafe, has grown from serving 11,000 meals in the 
summer of 2004 to serving over 250,000 meals during summer 
2010.
    In fall 2009 the SanDi Coast Cafe brought a new approach to 
serving food to high school students. Seamed mobile carts go to 
campus locations, where students gather at lunch, dishing up 
the student tested and approved menu. Students have responded 
by eating substantially more reimbursable meals than ever 
before.
    New in fall 2010 is the Farm to School Program, which 
connects students and local farms with the objective of serving 
healthy meals in school cafeterias while supporting local and 
regional farmers.
    My testimony today will underscore our significant concerns 
with the costs and other implications of a number of the 
provisions of the recent reauthorization and the proposed new 
nutrition standards in meal patterns issued by the Department 
of Agriculture.
    These concerns are not unique to San Diego and are 
generally shared by other school food service directors in 
California school districts and by all the major associations 
representing school districts, the Council of Great City 
Schools, the school boards administrators, and the school 
boards of the nation.
    It is important to understand the context in which my 
school meals program operates. The school board and 
Superintendent Kowba have cut $300 million from school 
operations over just the past 3 years in response to the 
greatest financial crisis in California in recent history. For 
the upcoming school year, the San Diego Unified School District 
is facing up to $203 million in additional cuts.
    The Department of Agriculture's proposed regulation for 
school meals estimates $6.8 billion over 5 years in additional 
costs resulting from the proposed rules, with less than $1.6 
billion in additional school reimbursements, leaving over a $5 
billion shortfall for state and local food services officials 
to attempt to cover.
    Moreover, some of the new untried and untested federal 
regulations will decrease participation in the national school 
meals program, leaving some children hungry and driving others 
to less healthy alternatives.
    Currently, our menus are planned by a registered dietitian 
and then computer analyzed, using nutrient standard menu 
planning, which allows great flexibility in selecting food and 
portion sizes. It also ensures that meals meet nutritional 
standards before they are ever served to the students.
    USDA proposes replacing nutrient standard menus with less 
accurate food-based menu planning programs for all districts.
    In order to evaluate the new proposal, I worked with our 
dietitian to prepare selected menus based on the new standards. 
Thanks to our existing nutrient standard menu program, I was 
proud to find that our current menus for breakfast and lunch 
are already in compliance. What was disturbing, however, was 
the greatly increased food costs that our district would have 
to absorb.
    Breakfast programs are especially jeopardized under these 
new proposals. In our district it generally consists of fruit, 
low-fat milk and a simple entree, and it already meets the 
established new standards. Even so, the proposal would double 
the fruit serving, so the child would receive two servings of 
fruit, an additional meat serving, and increase the number of 
breakfast servings over the course of the week.
    Based on many years of experience serving breakfast to 
children, I and my colleagues in the school food service field 
are certain that breakfast will be too large for more students 
to consume.
    San Diego School District has a long and strong standing 
commitment to providing a wide variety of fruits and 
vegetables. All of our elementary schools and the majority of 
our secondary schools feature salad bars.
    Ironically, the proposed regulations eliminate many of the 
most popular and well accepted vegetables by restricting 
potato, corn and peas to only one cup a week total. It is hard 
to make the case that the bright green peas on our salad bar, 
our baked potatoes stuffed with local broccoli and topped with 
low-fat cheese sauce, and our Mexican corn with rice is in any 
way detrimental to the health of our students.
    Another problem is the definition of serving size. 
Currently, fruits and vegetables can be combined together into 
one serving, which allows the meal to be considered a 
reimbursable meal. The proposal separates the two and does not 
allow anything less than a full serving to be counted.
    Not only are schools with salad bars affected by this 
proposal, programs of all serving configurations must comply 
with the more costly serving size requirement. If students 
refuse to take fruits or vegetables they don't want, the meal 
may not qualify as reimbursable.
    Serving lines must move very quickly when we have to serve 
hundreds of students per hour, and there is no time to discuss 
the finer points of apple size and number of carrot sticks to 
try to convince the student he or she should take more food 
than they want.
    We support controlling sodium in school meals and are 
confident we can meet the proposed target one and two levels. 
We have already reduced sodium in our meals substantially over 
the years. However, the final proposed sodium content is lower 
than those used for cardiac patients in a hospital.
    There is no evidence that lowering sodium intake of healthy 
children has any impact on their health as adults--only 
speculation. Clinical studies have shown that when sodium 
levels are reduced to this level, people cannot tolerate the 
food.
    In order to meet the diverse needs of San Diego's children, 
the schools in our district have a variety of race 
configurations. In addition to kindergarten students, many of 
our schools have programs for pre-kindergarten children as 
young as 4 years old. There are also a significant number of K-
8 schools.
    Chairman Hunter. Ms. Spero? Ms. Spero?
    Ms. Spero. Yes?
    Chairman Hunter. Ms. Spero, we have your testimony for the 
record, and we are going to have to, in the interest of time 
and flights out and stuff, have to move on to Ms. Castaneda, if 
that is okay.
    Ms. Spero. Okay. Thank you.
    Chairman Hunter. So thank you for your testimony.
    Ms. Spero. I talked as fast as I could.
    [The statement of Ms. Spero follows:]

    Prepared Statement of Sally Spero, SNS, Food Services Planning 
             Supervisor, San Diego Unified School District

    Good morning, Chairman Hunter, Congressman Kildee, and members of 
the Subcommittee. I am Sally Spero, Food Services Planning Supervisor 
of the San Diego Unified School District (SDUSD). I have worked in the 
school nutrition field for over twenty-five years and have served in my 
present capacity for fourteen years. Thank you for the opportunity to 
testify on the impact of the proposed school meals requirements and the 
recent Child Nutrition reauthorization.
    The San Diego Unified School District is the 7th largest school 
district in the nation serving over 132,000 students, 60% of which are 
eligible for free and reduced price school meals. Guided by our leader 
Gary Petill, we serve over 24 million meals and snacks yearly.
    We have much to be proud of in our district. Our award-winning 
Kid's Choice Cafe established a salad bar program in each elementary 
school and shows students that ``It's Cool to Eat at School''. We were 
among the pioneers of the Breakfast in the Classroom program, 
dramatically increasing breakfast participation for needy children. Our 
summer lunch program, the Summer Fun Cafe, has grown from serving 
11,000 lunches in Summer 2004 to serving over 250,000 lunches during 
Summer 2010. In Fall 2009, the SanDi Coast Cafe brought a new approach 
to serving food to high school students. Themed, mobile carts go to 
campus locations where students gather at lunch, dishing up the 
student-tested-and-approved menu. Students have responded by eating 
substantially more reimbursable meals than ever before. New in Fall 
2010 is a Farm to School Program which connects students and local 
farms with the objectives of serving healthy meals in school cafeterias 
while supporting local and regional farmers.
    My testimony today will underscore our significant concerns with 
the cost and other implications of a number of the provisions of the 
recent reauthorization and the proposed new nutrition standards and 
meal patterns issued by the Department of Agriculture. These concerns 
are not unique to San Diego, and are generally shared by other food 
services directors in California school districts, and by all the major 
national organizations representing school districts--the Council of 
Great City Schools, the School Administrators, and the School Boards of 
the nation.
    It is important to understand the context in which my school meals 
program operates. The School Board and Superintendent Kowba have cut 
$300 million from school operations over the past 3 years in response 
to the greatest financial crisis in California in recent memory. For 
the upcoming school year, San Diego Unified School District is facing 
up to $203 million in additional cuts. The Department of Agriculture's 
proposed regulation for school meals estimates $6.8 billion over five 
years in additional cost resulting from the proposed rules with less 
than $1.6 billion in additional school lunch reimbursements--leaving 
over a $5 billion shortfall for state and local food services officials 
to attempt to cover. Moreover, some of the new untried and untested 
federal requirements could decrease participation in the national 
school meals programs, leaving some children hungry and driving others 
to less-healthy alternatives.
    Currently, our menus are planned by a registered dietitian and then 
computer-analyzed using nutrient-standard menu-planning which allows 
great flexibility in selecting food and portion sizes. It also ensures 
that all meals meet nutrition standards before they are ever served to 
students. USDA proposes to replace nutrient-standard menu with less-
accurate food-based menu-planning for all districts. A computer 
analysis would only be required every three years during the audit 
process. In addition, a number of important nutrients will no longer be 
monitored at all including iron, calcium and Vitamins A and C.
    In order to evaluate the new proposals I worked with our dietitian 
to prepare selected menus based on the new standards. We used our 
current menus as a starting point and made adjustments as required by 
the new rules.
    Thanks to our existing nutrient-standard menu-based program I was 
proud to find that our current menus for breakfast and lunch are 
already in compliance with all the new proposed nutrition standards 
with the exception of sodium at lunch. All the meals fell within the 
calorie targets, all the meals met the low-fat standards and all the 
meals complied with the whole-grain and fruit and vegetable goals.
    What was disturbing, however, were the greatly increased food costs 
our district would have to absorb by going to a less-accurate food-
based system. Breakfast food costs increased by 20%, elementary lunch 
costs increased by 28% and secondary lunch costs increased by 16%. 
Using nutrient-standard menu-planning we are able to focus in very 
precisely on each food served on the menu and we can adjust the items 
and the serving sizes to exactly meet the students' nutritional needs. 
For example, when we want to make a rice bowl using nutrient-standard 
menu-planning we are able to juggle the different amounts of meat, 
vegetables and rice to get the best nutritional profile for the dish at 
the optimal cost. Under food-based, we do not have this flexibility and 
the arbitrary standards increase the food cost without improving the 
overall nutritional quality for the students.
    Breakfast programs are especially jeopardized under these 
proposals. In our district it generally consists of fruit, most of 
which is a fresh, low-fat milk and a simple entree such as a breakfast 
quesadilla or cereal with graham crackers. As noted above, these meals 
already meet all the new standards for fat, saturated fat, calories and 
sodium.
    Even so, the proposal will double the fruit serving so that the 
child would receive two servings of fruit, would add a required meat 
serving daily, and would increase the number of bread servings over the 
course of a week.
    Based on many years of experience serving breakfast to children I 
and my colleagues in the school food service field are certain that the 
breakfast will be too large for most students to consume, increasing 
food waste without improving nutrition for the children. Nothing is 
achieved when money is spent on food that children won't even be able 
to consume and nothing is more disheartening to a school food service 
professional than to see perfectly good and perfectly untouched food 
thrown into the trash.
    It costs more money to buy more fruit, meat and bread. In its 
proposal USDA estimates the new meal will cost $.50 more for each meal. 
This proposal would cost my district over $4 million dollars yearly, 
money the Food Services department does not have.
    San Diego Unified School District has a strong and long-standing 
commitment to providing a wide variety of fruits and vegetables to 
students. All of our elementary schools and the majority of our 
secondary schools feature salad bars where over twenty different fruits 
and vegetables are offered weekly. This school year we have added a 
Farm to School program so that more of our fruits and vegetables come 
from local and regional sources and help support our small farmers and 
businesses. In addition, we incorporate vegetables into many of our 
entrees in popular choices such as Asian bowls with meats and 
vegetables and chef salads.
    Ironically, the proposed regulations eliminate many of the most 
popular well-accepted vegetables by restricting potatoes, corn and peas 
to one cup a week total. It is hard to make the case that the bright 
green peas on our salad bar, our baked potato stuffed with local 
broccoli and topped with low-fat cheese sauce and our Mexican corn with 
rice are in any way detrimental to the health of the students.
    Another problem is the definition of a serving size. Currently, 
fruits and vegetables can be combined into one serving which allows the 
meal to be considered a reimbursable meal. The proposal separates the 
two and does not allow anything less than a full serving of each to be 
considered. So a student at one of our salad bars taking 3 orange 
wedges when a full fruit serving would be 4 orange wedges and a full 
cup of fresh spring mix when a full serving would be 1\1/2\ cups would 
have a substantial amount of healthy, fresh food but still would not 
have what is required under the proposal. When students are forced to 
take food they don't want and don't plan to eat to meet an arbitrary 
standard we send a mixed message to the students. Food waste is also 
increased. The difficulty and extra cost of administering salad bars 
under these proposals is quite troubling.
    Not only schools with salad bars are impacted by this proposal. 
Programs of all serving configurations must comply with these more 
costly serving size requirements. If the students refuse to take fruits 
and vegetables they don't want, the meal may not qualify as a 
reimbursable meal. Serving lines must move very quickly when we have to 
serve hundreds of students per hour and there is no time to discuss the 
finer points of apple size and number of carrot sticks to try to 
convince the student he or she should take more food than they had to 
last year or more food than they want to eat.
    We support controlling excess sodium in school meals and are 
confident that we can meet the proposed Target 1 and Target 2 levels. 
We have already reduced sodium in our own meals substantially over the 
years by moving to fewer processed foods and more fresh offerings. 
However, the final proposed sodium content requirements are lower than 
those used for cardiac patients in a hospital setting. There is no 
evidence that lowering sodium intake of healthy children has any impact 
on their health as adults, only speculation. Clinical studies have 
shown that when sodium levels are reduced to this level people cannot 
tolerate the food offered.
    Sodium does not just add a salty taste to foods. It has a 
functional aspect in a number of foods too. For example, baking soda is 
used in quick breads and muffins to make them rise. The final targets 
go to such a point that instead of merely pushing schools to use lower-
sodium products planning a normal, attractive meal would be almost 
impossible.
    Let's go back to breakfast where the final target is 430 milligrams 
of sodium. Under the proposal we have to serve a carton of milk, two 
servings of grains or breads, one serving of meat or meat alternate and 
two servings of fruits or vegetables. One cup of milk and one cup of 
unsweetened corn flakes is 367 milligrams of sodium. No one would think 
this is a terribly salty meal. But at this point I only have the milk 
and one serving of grain and have already reached 85% of the sodium 
that it allowed. I can't serve a bigger helping of cereal because I 
will surely go over. I can't add a slice of toast with 150 milligrams 
or an ounce of cheese with 170 milligrams. I wouldn't dare add half a 
cup of low-fat cottage cheese, which is 450 milligrams. You can see 
that these requirements are not entirely practical.
    In order to meet diverse needs of San Diego's children, schools in 
our district have a variety of grade configurations. In addition to 
kindergarten students, many of our schools have programs for pre-
kindergarten children as young as 4 years old. There are also a 
significant number of K-8 schools.
    Adding a third grade grouping is truly impractical in a school 
district setting and it is virtually impossible for meals to be planned 
according to the proposed standards because what is acceptable for the 
4th-grade child is not acceptable for 6th grade child and so on. At 
breakfast, it is very common for siblings of different ages to come at 
the same time and eat together. Students are not scheduled for lunch 
according to their ages but according to other needs of the academic 
day. It is more common than not to find the second-graders followed by 
the sixth-graders followed by the first graders and so on. Requiring 
the cashier to determine what constitutes a reimbursable meal for each 
particular student in a busy cafeteria full of excited children is 
really asking for what cannot be performed.
    Consuming generous amounts of whole-grain products is an important 
goal for our children. In San Diego all our breads and buns are made 
with albino whole-wheat flour that gives the students the benefits of 
whole-grains without the dark color that many students find off-
putting. But there are other products that really don't lend themselves 
to that definition--saltine crackers, for example. Products such as 
whole-wheat tortillas and whole-wheat pasta are more expensive and not 
even available in all areas of the country. Product reformulation, 
recipe testing and changes in labeling all take time and cost money. 
USDA and the FDA do not even have a common standard for ``whole-grain 
rich'' which does not allow us to know which products will meet the new 
definitions.
    Another concern is that changing from the current 5-year 
Coordinated Review Effort cycle to a 3-year review cycle as well as 
reviewing two weeks of data instead of one which will result in 
additional costs for states and for districts. The Nutrition Services 
Division of the California Department of Education has always been a 
wonderful resource for me. I have called their knowledgeable staff for 
assistance and guidance any number of times and they have always been 
there for me. They have celebrated our successes and they haven't 
waited until review time to contact us if they have received a 
complaint or have heard of something about our programs that concerns 
them.
    But in any district, CRE preparation is considerable. I conducted 
the first of many training and orientation sessions for our staff last 
week and our next CRE is not even until next March. I distributed a 
time-line and task list document that was 6 single-spaced pages long. 
The costs of gathering materials and well as devoting limited 
administrative time to these reviews is very significant. I would like 
to point out that reviews are not the only way districts improve their 
programs. A strong support program, technical assistance, classes and 
webinars are other paths. These could be imperiled if state agencies 
must now spend much more of their time only doing CREs.
    Finally, the proposed regulations were issued without a clear 
statement of how their impact would be evaluated. This is especially 
troublesome because they are purely theoretical at this point and have 
never piloted or used in any school setting anywhere. Real issues about 
the practicality of these regulations have been raised by numerous 
groups throughout the country. Risks from unintended consequences such 
as schools eliminating breakfast programs, student meal unacceptability 
and the true impacts of costs are greatly concerning. These changes 
should be evaluated in a systematic way. Careful and prudent changes 
that strengthen our programs and benefit our children can be and should 
be made based on actual, not theoretical, information.
    Again, thank you for the opportunity you have given me today.
                                 ______
                                 
    Chairman Hunter. I understand. You get really quick around 
here at speaking.
    I would like to now recognize Ms. Castaneda for 5 minutes.

    STATEMENT OF KAREN CASTANEDA, DIRECTOR OF FOOD SERVICE, 
                   PENNRIDGE SCHOOL DISTRICT

    Ms. Castaneda. Good morning, Chairman Hunter and members of 
the subcommittee. I am Karen Castaneda, the director of 
nutritional services from Pennridge School District. It is an 
honor to speak with you today on the most important subject to 
date for school nutrition directors nationwide.
    I applaud the efforts and the focus of the Healthy Hunger-
Free Kids Act of 2010. The health and well-being of our 
nation's children is to all a number one priority. School 
nutrition professionals serve healthy meals to 32 million 
children daily, and for many it may be the most nutritious meal 
of the day.
    When considering the impact of the changes contained in the 
revised meal standards, it is vital to understand that 
children's food preferences do not change instantaneously. In 
order for children to successfully change their eating habits, 
commitment is required from parents, the community, the 
restaurant industry, and the food manufacturing industry.
    When change occurs simultaneously at all levels, success 
can be forthcoming. However, under the proposed rules school 
meals would become so restrictive that that they would be 
unpalatable to many students. This fact alone will make it very 
difficult. Balancing the need for healthier food choices and 
students' preferred eating habits is indeed a challenge.
    There are specific concerns with the increase in fruit and 
vegetable servings of the requirement for meal credit. 
Currently, in the traditional meal pattern following the offer 
versus serve method, five meal components are offered, and 
three must be selected to complete a meal. The five components 
include meat/meat alternative, milk, grains/bread and two 
servings of fruit and/or vegetables.
    In the proposed rule in order for a meal to be complete, 
the student must take a serving of a fruit and a vegetable. The 
serving size of the fruit and vegetable combined will increase 
from three-quarters of a cup to one-and-a-quarter cups at the 
elementary level and from one to two cups at the secondary 
level.
    Schools will probably sell fewer meals and need to take 
away the choice of offer versus serve, because not all students 
will select fruits and vegetables. Moreover, increasing the 
fruit and vegetable serving size will result in more waste, as 
students will not be able to consume the full portion.
    The proposed rule is looking to increase the consumption of 
fruits and vegetables. However, by limiting the students' 
favorite vegetable choices, corn and potatoes, to one cup 
combined surveying per week, there is a mixed message.
    There are major concerns with sodium restrictions. While 
the sodium levels of 1,230 milligrams to 1,420 milligrams are 
achievable, target two and three are much more restrictive. The 
implementation of those targets will depend on products that 
manufacturers can offer or that districts can make from 
scratch.
    We are looking at levels of sodium that have truly never 
been tested for acceptability, and the only arena where these 
restrictive levels have been prescribed before is in the diet 
plan of patients with particular diseases. Sodium is a 
naturally occurring nutrient, and therefore, these restrictive 
levels will be very difficult to adhere to.
    There are great concerns when considering the breakfast 
meal under the proposed rule. The serving size of a fruit and/
or vegetable doubles, and the serving of an entree will 
increase up to two bread/grain and two meat/meat alternative at 
the high school level.
    The new pattern results in students being offered 
substantially more food for breakfast. In many cases the 
student will not be able to finish what is offered, and food 
will be wasted.
    The increased costs associated with the new meal pattern 
will affect breakfast programs, as school food authorities may 
determine it is too expensive to provide a breakfast meal. 
Therefore, all efforts over the last few years to expand the 
breakfast programs nationwide will have been futile, as the 
proposed rule would lead to the contraction of the school 
breakfast meal.
    There is a picture in your packet I just want to point out. 
You can see breakfast today and then breakfast under the 
proposed rule. It shows the increase in portions.
    When considering the food cost in general of the proposed 
rule and the impact of my own operation, in looking at the 
number of breakfast meals served annually at 70,000 and the 
number of lunch meals served annually at 544,530 meals, the 
estimated increase in the cost of the breakfast food is 50 
cents per meal, and the estimated increase in the lunch meal is 
14 cents per meal.
    Looking at that increase, it would bring 35,000 increase in 
food cost for breakfast and a 76,234 increase in food cost for 
lunch. Taking into account the federal reimbursement of 6 cents 
for the lunch meal, that adds $32,460 of revenue. Altogether, 
that takes $78,774 of increased food cost to my department.
    The increase in food cost will leave my efficient 
department with a lower level of profit. I would need to cut 
costs in other areas to make up for the loss. The cost data 
above is from USDA and is very conservative in nature. This 
simple formula does not even begin to uncover the lost revenue 
that will occur as paying customers decide they no longer want 
to participate in the program.
    Sorry. In addition to the proposed rule, the type of food 
that would be served is considerably more expensive and 
requires more labor to prepare. Grilled chicken breast, fish, 
whole-grain pastas and breads, fresh fruits and vegetables are 
higher in cost than hamburger, breaded chicken, traditional 
pastas and breads, and canned or frozen fruits and vegetables. 
And that is why today many of our nation's school food 
authorities already offer this variety and balance of healthy 
food selections listed above.
    In conclusion, it is imperative to address childhood 
obesity and support schools as they move in the direction of 
serving healthier foods. The proposed rule is essentially an 
unfounded mandate, which will harm my program.
    I do understand that the creation of the Healthy Hunger-
Free Kids Act was based on improving the health of our 
children. Unfortunately, every school food authority, 
regardless of the economic status and whether a self-operated 
or contracted operation, will experience financial loss.
    Now is the time to work toward a resolution which will 
address the health of our children and allow our school 
nutrition departments financial viability. Thank you for your 
time and consideration of the impact of the Healthy Hunger-Free 
Kids Act of 2010.
    [The statement of Ms. Castaneda follows:]

   Prepared Statement of Karen Castaneda, Director of Food Service, 
                       Pennridge School District

    It is an honor to speak with you today on the most important 
subject to date for School Nutrition Directors nationwide. I applaud 
the efforts and the focus of the Healthy, Hunger-Free Kids Act of 2010. 
The health and well-being of our nation's children is to all a number 
one priority. School Nutrition Professionals serve healthy meals to 32 
million children daily and for many it may be the most nutritious meal 
of the day.
    When considering the impact of the changes contained in the revised 
meal standards, it is vital to understand that children's food 
preferences do not change instantaneously. In order for children to 
successfully change their eating habits commitment is required from 
parents, the community, the restaurant industry and the food 
manufacturing industry. When change occurs simultaneously at all levels 
success can be forthcoming. However under the proposed rule, school 
meals would become so restrictive they would be unpalatable to many 
students. This fact alone will make it very difficult. Balancing the 
need for healthier food choices with students' preferred eating habits 
is indeed a challenge.
    There are specific concerns with the increase in fruit and 
vegetable servings and the requirement for meal credit. Currently in 
the traditional meal pattern following the ``offer versus serve'' 
method, five meal components are offered and three must be selected to 
complete a meal. The five components include: Meat/Meat Alternative, 
Milk, Grains/Breads, and two servings of Fruits and/ or Vegetables. In 
the proposed rule, in order for a meal to be complete the student must 
take a serving of a fruit or vegetable. The serving size of the fruit 
and vegetable combined will increase from \3/4\ cup to 1\1/4\ cup at 
the elementary level and from 1 cup to 2 cups at the secondary level. 
Schools will probably sell fewer meals or need to take away the choice 
of ``offer versus serve'' because not all students will select fruits 
and vegetables. Moreover, increasing the fruit and vegetable serving 
size will result in more waste as students would not be able to consume 
the full portion. The proposed rule is looking to increase the 
consumption of fruits and vegetables; however, by limiting students' 
favorite vegetable choices, corn and potatoes to a 1 cup combined 
serving per week, there is a mixed message.
    There are major concerns with the sodium restrictions. While the 
sodium levels of 1230mg--1420mg are achievable, Target 2 and 3 are much 
more restrictive. The implementation of those targets will depend on 
the products that manufacturers can offer or that districts can make 
from scratch. We are looking at levels of sodium that have truly never 
been tested for acceptability and the only arena where these 
restrictive levels have been prescribed before is in the diet plan for 
patients with particular diseases. Sodium is a naturally occurring 
nutrient and therefore these restrictive levels will be more difficult 
to adhere too.
    There are great concerns when considering the breakfast meal under 
the proposed rule. The serving size of fruit and/or vegetable doubles 
and the serving of the entree will increase to include up to 2 bread/
grain and 2 meat/meat alternative at the high school level. The new 
pattern results in the students being offered substantially more food 
for breakfast. In many cases the student will not be able to finish 
what is offered, and food will be wasted. The increased costs 
associated with the new meal pattern will affect breakfast programs, as 
school food authorities may determine it is too expensive to provide 
the breakfast meal. Therefore all of the efforts over the last few 
years to expand breakfast programs nationwide will have been futile as 
the proposed rule will lead to contraction of the school breakfast 
meal.
    When considering the food cost in general with the proposed rule, 
the impact of my own operation would be as follows:
    Annual Breakfast Meals Served--70,000
    Annual Lunch Meals Served--544,530
    Estimated increase in cost of food per Breakfast Meal--$0.50
    Estimated increase in cost of food per Lunch Meal--$0.14
    70,000 @ $0.50 = $35,000 increase in food costs.
    544,530 @ $0.14 = $76,234 increase in food costs
    Federal Reimbursement for Lunch--$0.06 per meal = $32,460
    $111,234 - $32,460 = $78,774 adjusted increase in food costs
    This increase in costs will now leave my efficient department with 
a lower level of profit. I would need to cut costs in other areas to 
make up for this loss. The cost data above is from the USDA and is very 
conservative in nature. This simple formula does not even begin to 
uncover the lost revenue that will occur as paying customers decide 
they no longer want to participate in the program. In the proposed 
rule, the type of food that would be served is considerably more 
expensive and requires additional labor to prepare. Grilled chicken 
breasts, fish, whole grain pastas and breads, fresh fruits and 
vegetables are higher in cost than hamburger, breaded chicken, 
traditional pastas and breads and canned or frozen fruits and 
vegetables. That is why today many of our nations' school food 
authorities already offer this variety and balance of healthy food 
selections.
    Although school self-operated food service programs are non-profit 
in nature, it is expected that they at least break-even. In many cases 
food service operations are paying more expenses then before as state 
budgets have tightened and there is less money in the school budgets. 
With escalating retirement costs, the additional social security costs 
and the slashing of state education budgets, there is no excess funding 
at the school level. Therefore revenue-generating programs must at 
least break even or they will become unsustainable in today's economic 
environment. The impact of the proposed rule will at a minimum be 
$78,774 for my department which in terms of education budgets is equal 
to a teacher's salary in the surrounding area.
    Additionally in schools across the country, ala carte sales can 
contribute significant revenue to school nutrition departments. 
Nationwide this revenue is over 2 billion annually. In my operation it 
comprises 23 percent of revenue. With the implementation of the new 
nutrition standards for all foods sold in schools, throughout the 
school day, if similar to the proposed rule for meal patterns, this 
revenue will be greatly reduced. Today school food authorities not only 
service their own district, many provide meal service to private and 
charter schools in order to better serve the community and maintain 
financial stability within their program.
    As sales decrease and financial losses accrue in school nutrition 
programs, consideration may be given to contracting services or 
dropping out of the national school lunch and breakfast program. There 
are many options to consider in analyzing the right course of action. 
There are schools today that have elected to withdrawal their high 
school from the program due to the issue of loss of revenue. The 
proposed rule will push schools in this direction to find financial 
sustainability.
    In addition to the concern of the increase in costs, the ``Equity 
in School Lunch Pricing'' creates quite a predicament for the School 
Nutrition Director.
    Federal Reimbursement Free Lunch--$2.72
    Federal Reimbursement Paid Lunch--$0.26
    Price to Compare for Average Lunch Meal--$2.46
    According to guidance from the Pennsylvania Department of Education 
the formula applies the indicated inflation factor of 3.14% to average 
meal prices and rounds down to the nearest 5 cents, which provides 
confusing results. A meal price of $2.25 would need to increase 5 cents 
and a meal price of $1.50 would not require an increase. I believe the 
issue becomes further complicated when presented to the school board. 
School boards are used to having control over meal pricing and in some 
cases they are not allowing the increases due to the difficult economic 
times. This year, it is understood that the state reimbursement of 10--
17 cents per meal can be considered to offset the difference. However 
you look at this issue, the School Nutrition Director is caught in the 
middle of the government regulation and the direction of the school 
board. Determining equity in meal pricing just in the state of 
Pennsylvania alone is cumbersome with price ranges from $1.00 to $3.75 
for the basic lunch. Looking at this issue nationally becomes more 
complicated with the variance of economics across each state.
    In conclusion it is imperative to address childhood obesity and 
support schools as they move in the direction of serving healthier 
foods. The proposed rule is essentially an unfunded mandate, which will 
harm my program. I do understand that the creation of the Healthy, 
Hunger--Free Kids Act was based on improving the health of our 
children. Unfortunately every school food authority regardless of the 
economic status, whether a self-operated or contracted operation will 
experience financial loss. Now is the time to work toward a resolution 
which will address the health of our children and allow our school 
nutrition department's financial viability. Thank you for your time and 
consideration of the impact of the Healthy, Hunger-Free Kids Act of 
2010.
                                 ______
                                 
    Chairman Hunter. Thank you for your testimony.
    I would now like to recognize Mr. Hecht for 5 minutes.
    Mr. Hecht. Good morning.
    Chairman Hunter. Good morning.

STATEMENT OF KENNETH HECHT, EXECUTIVE DIRECTOR, CALIFORNIA FOOD 
                        POLICY ADVOCATES

    Mr. Hecht. Chairman Hunter, Mr. Kildee, Members--of the 
Committee thank you for this opportunity. My name is Ken Hecht 
from California Food Policy Advocates.
    Because we focus on nutrition policy for low-income 
Californians, the school meal programs are a special focus for 
us. I would like to pose three questions and then propose the 
answer to them.
    On whom are we focused? First, on whom are we focused? What 
are we trying to protect or promote? Second, what is the 
problem we are trying to solve? And third, are we taking the 
right steps to get there?
    First, who is our focus or what is the lens with which to 
look at the issues that we bring to this committee today? I 
think if we are talking about the National School Lunch 
Program, we are talking about children. The focus has always 
been on children for 65 years.
    They are the key beneficiaries of this program, along with 
other interests, to be sure, agriculture for one. But the real 
beneficiaries have been our children. For that reason and the 
success of the program, the program has had bipartisan support, 
strong bipartisan support, throughout its history.
    The school lunch program was established to prevent hunger 
and food insecurity particularly in the school day, where that 
condition could be so deleterious. The program has done a good 
job with that, but the world has changed.
    So we come to the second question. What is the current 
problem? While hunger and food insecurity persist, and kids 
continue to come to school hungry, Mr. Kildee, the more 
prevalent problem today is obesity and overweight, with one-
third of our children suffering from that condition. The 
Surgeon General some years ago thought the situation dire 
enough to call it an epidemic of obesity.
    Obesity and overweight have many causes, and there are many 
parts to the solution. The school meal program isn't the cause. 
It isn't going to be the solution all by itself.
    But in a world in which children are seeing mainly fast 
food, where they have mainly working parents, where they are 
often sedentary because it is unsafe to go outside, where there 
is a lack of healthy food for them to access, school is a very 
natural place to start to push back. If we don't, the 
consequences are really immense.
    We know that the public cost of diet-related disease is now 
147 billion per year, and we know on a personal level the 
terrible future that children who become overweight and obese, 
where there is very little likelihood that they are going to 
reverse that condition, carry it for the rest of their lives 
with all of the medical consequences.
    Question number three, what steps have we taken, and are 
they the right way to achieve a solution to this problem of 
obesity? In 2004 this committee, and then the Congress, 
directed USDA to align school meals with the dietary 
guidelines. It hadn't been done for 15 years. USDA in turn 
commissioned the Institute of Medicine to study the problem and 
to make recommendations.
    October 2009, recommendations came out of the IOM by 
consensus. January 2011, a proposed rule emerged, to which 
there are 130,000 comments, all of which USDA is committed to 
read and consider carefully. And I have talked to people in the 
highest levels of USDA, and I know they are very serious about 
that obligation.
    The proposed rule is based on science, and it is based on 
experience, experience in countless states and districts that 
have entered this field, because the federal government was 
slow doing so. And they have success in virtually every aspect 
of the Healthy Hunger-Free Kids Act.
    We have experience on record with a program that USDA 
started some years ago called the Healthier U.S. Challenge, 
where there are very rigorous criteria for nutrition and for 
physical activity. Over a thousand schools across the country 
have made it on the challenge, and many more have met the 
standards for nutrition, but not been able to yet on physical 
activity.
    These changes can be done, the changes in the Healthy 
Hunger-Free Kids Act. They have been done. The bill offers lots 
of resources to districts and to states, and the districts 
retain their autonomy in the process. We urge no delay. Our 
children deserve this. Thank you.
    [The statement of Mr. Hecht follows:]

 Prepared Statement of Kenneth Hecht, California Food Policy Advocates

    Mr. Chairman and Members, thank you for this opportunity to appear 
before the subcommittee. My name is Ken Hecht and I am the executive 
director of California Food Policy Advocates. CFPA is a statewide food 
policy and advocacy organization devoted to improving the health and 
well-being of low-income Californians by increasing their access to 
nutritious, affordable food. We focus our work on strengthening the 
federal food programs--given their size and scope, they have proved to 
be strong resources in preventing hunger and food insecurity, as well 
as obesity and overweight, among our low-income families and 
communities. We give high priority to the role the school meal programs 
play in enabling our children to live healthy, productive lives. We do 
this work in proud partnership with the California Department of 
Education and with many school districts throughout California.
National School Lunch Program
    The National School Lunch Program (NSLP) is one of our country's 
public policy treasures. Since its establishment in 1946 it has earned 
and enjoyed bipartisan support of its mission: ensuring that our 
children are well nourished and ready to learn. We know that the 
program works--decades of studies show that NSLP improves our students' 
nutrition and health, enabling them to concentrate during instruction, 
as well as contributing to higher academic performance and better 
career opportunities. NSLP not only strengthens our workforce, but it 
also saves billions a year in health care costs associated with a long 
list of chronic, diet-related diseases including diabetes, heart 
disease and cardio-vascular illness, among others.
    Today the school lunch and breakfast programs, with a federal 
investment of about $12 billion annually, serve in excess of 31 million 
students daily. Many of these participants are from low-income 
families, and for them the programs may provide most of their intake 
for the day--and virtually all of their healthy food and beverages. The 
continuing importance of the school meal programs to families 
struggling to put food on their table was borne out once again by the 
sharp uptake of participation over the past several years as the nation 
experienced the recent great recession. But it is not only low-income 
people who benefit from the school meal programs. Families where every 
adult is working, perhaps working two jobs, often lack the time to 
serve breakfast or to pack a lunch. For these families, too, the school 
meal programs reassure parents that their children are in good hands 
nutritionally when they are away from home. School lunch eaters retain 
very positive memories of their years in the cafeteria: poll after poll 
attests to the country's loyalty to the school meal programs
    NSLP originally was developed to strengthen the nutrition and 
therefore the academic performance of children who were unable to get 
enough to eat and came to school hungry and unable to learn. While some 
schools provided meals prior to 1946, the federal funding and structure 
for the program materialized with the discovery by World War II 
selective service boards that a significant number of draftees were 
unfit for military service because of nutritional deficiencies, so that 
establishment of NSLP was seen as a ``matter of national security.''
    While NSLP has achieved an impressive record of achievement in 
stanching what we now call food insecurity, the country--and the school 
meal programs-has been overtaken by a more recently recognized threat 
to our children's health--the childhood obesity epidemic. Today, after 
decades of escalating obesity rates, nearly one-third of our school-
aged children are obese or overweight. This statistic takes on 
additional gravity as studies tell us that childhood obesity is rarely 
reversed as adulthood is attained. The price of this affliction is 
immense for individuals in terms of their health and academic, social 
and career opportunities, and the price is immense for all our 
communities that are called on to pay for these chronic diet-related 
conditions. Recent estimates put the annual cost of diet-related health 
care and lost economic productivity at $147 billion.
    Unfortunately, food insecurity persists, with the most recent 
government estimate showing 17 million American children in jeopardy of 
food shortages, and S. 3307, the Healthy, Hunger-Free Kids Act of 2010, 
improves the school meal programs in ways specifically relevant to 
them. However, the far greater problem today is overweight and obesity, 
and it is mainly this urgent problem that Congress has addressed in S. 
3307, which was passed on unanimous consent in the Senate, as had 
several previous renewals of the child nutrition programs. And, to 
close the circle, fitness for military service has been raised again in 
support of improving the school meal programs, this time because of our 
children's obesity and overweight. Former generals, through 
organization called Mission Readiness, joined the extraordinary 
coalition of industry, health and education partners that supported 
passage of S. 3307 in December, 2010.
Updated Meal Patterns and Nutritional Standards
    There is an important concurrent development that bears directly on 
today's hearing. In 2004, at this committee's behest, Congress directed 
USDA to align school meal patterns and nutrition standards with the 
Dietary Guidelines for Americans, our country's most definitive 
statement on what we should be eating and drinking. Prior to this 
legislation, the meal patterns and nutrition standards had not been 
updated since the early 1990s, a long time in terms of new nutritional 
knowledge and in terms of the emergence of the obesity epidemic. USDA's 
School Nutrition Dietary Assessment Study-III (2007) confirmed that 
despite many improvements in nutritional quality, most meals served 
failed to satisfy even the obsolescent standards for school meals, much 
less the recommendations contained in the 2005 Dietary Guidelines for 
Americans, and that the deficiencies were obesity related--too much 
saturated fat, added sugars, too little fruit, vegetables and whole 
grains.
    In 2008, USDA commissioned the Institute of Medicine to undertake 
an appropriate investigation of the best information available to 
provide science-based recommendations. This is not the first time that 
USDA has followed this protocol: the WIC Program was revised in a 
similar manner, with IOM assistance helping to align its food package 
and education programs with the Dietary Guidelines for Americans; a 
transformation initiated by legislation sponsored by this committee in 
2004. The WIC changes are completed now and by all accounts they can be 
deemed a great success. Recent evidence in California indicates 
significant and positive behavior changes were noted among participants 
since the WIC food package was updated. In a way, the revisions to meal 
patterns and nutritional standards for K-12 students can be seen as an 
effort to continue on with the healthy food preferences and practices 
with which the updated WIC program gives children a start.
    The IOM's school nutrition panel was composed of eminent academics, 
researchers and school food services administrators. In hearings and in 
written documents, the panel heard the advice of countless 
stakeholders--primarily school food directors and food industry 
representatives, in addition to scholars and scientists whose careers 
have been focused on the elements and consequences of good nutrition. 
One striking theme that emerged in testimony before the IOM panel was 
the many remarkable improvements in school nutrition that states and 
school districts already have undertaken. Healthier school food has 
been brought into districts across the country by school food 
directors, parents and children unwilling to wait for federal 
leadership. A few examples of innovation underway in California 
schools:
    <bullet> Los Angeles Unified School District won the Whole Grains 
Challenge, bestowed by the Whole Grains Council in 2008 for the 
district's menus that incorporate whole wheat breads, cereals and 
serving brown rice. LAUSD also increased its produce purchases from $3 
million in 2006 to $14 million in 2009.
    <bullet> Ventura Unified School District offers salad bars with 
fresh vegetables and fruit--much of it locally sourced, when in 
season--daily at all schools.
    <bullet> San Diego Unified offers California's most extensive 
breakfast in the classroom program and provides students an 
extraordinary variety of produce and vegetarian items on its menus 
daily.
    <bullet> Compton Unified School District eliminated flavored milk 
from its breakfast program; participation increased.
    <bullet> Newark Unified (just outside Oakland) offers free, chilled 
filtered water in paper cups to all its NSLP participants.
    <bullet> Escondido Union High School District (just north of San 
Diego) prepares fresh-cooked breakfasts daily, with eggs, fresh fruit 
and posts carbohydrate counts to educate students about consuming fewer 
added sugars.
    <bullet> Long Beach Unified School District has reduced sodium to 
1100mg per lunch meal, as averaged over the week. This already meets 
USDA's proposed guideline for the first phase of sodium reduction.
    Improvements can be made and can be sustained financially.
    The IOM panel's recommendations were delivered to USDA in October 
2009. USDA then studied the recommendations, aided by advice from a 
variety of stakeholders, for 15 months before issuing a proposed rule 
to update menu patterns and nutrition standards in January 2011. Well 
over 130,000 comments on the proposed updates have been submitted 
(including our own, which are posted at www.cfpa.net). USDA will be 
combing through these suggestions in order to develop an interim rule 
and, eventually, a final rule. To understate the obvious, the 
development of these updated meal patterns and nutrition standards has 
been an exceedingly slow, painstaking and comprehensive process, and we 
can expect that same deliberative process to continue going forward. 
Development of the standards has taken years to date, and will not be 
complete until USDA carefully considers the feedback submitted by key 
stakeholders.
    It is worth noting that USDA Foods (formerly commodities) will 
contribute heavily to schools' ability to meet higher nutritional 
standards. USDA contributes over $1 billion per year of commodity foods 
that are estimated to represent one-fifth the cost of the food school 
districts acquire. Over the years USDA has steadily improved the 
nutrition profile of these items--leaner meats, low-fat cheese, no 
shortening or trans fats, more whole grain products, more fresh fruit 
and canned fruit without added sugar. Because USDA Foods are critical 
to school districts' bottom line, they provide a natural path to 
support better menus and recipes in the schools.
S. 3307 The Healthy, Hunger-Free Kids Act
    S. 3307 contains a broad range of improvements to the school meal 
programs. Some aim to improve participation in the programs, 
particularly by the neediest children. For example, borrowing from good 
business practice, the new law simplifies what districts must do to 
qualify low-income children for free and reduced-price meals. By 
relying more upon pre-existing data, schools are relieved from 
processing redundant paper forms and can be confident of the previously 
verified data upon which they rely, and students' nutrition will not 
depend upon the vagaries of an exceedingly cumbersome procedure.
    Updated Meal Patterns and Nutritional Standards. S. 3307 affects 
the USDA process initiated here in 2004 only by imposing a schedule 
upon the meal patterns and nutritional standards' consideration and 
implementation and by revising two technical provisions with milk and 
meal components. As pointed out above, USDA's school meal nutritional 
standards have not been updated for 15 years. During this period, the 
science of nutrition has changed, and school children have changed--
they have been afflicted by the childhood obesity epidemic. Revised 
standards are long overdue. As also has been mentioned above, virtually 
all the improvements have been implemented and found to be financially 
feasible in many schools and appealing for students. In the large 
majority of schools in which healthier menus have ben adopted, 
participation either has stayed even or increased.
    Similarly, industry has shown a remarkable capacity to embrace and 
incorporate healthier nutrition in a myriad of products designed for 
students and available to school food services. For example, Alliance 
for a Healthier Generation has supported the development of healthier 
school food products, reaching an agreement with 13 major school food 
manufacturers and suppliers. Further, to incentivize adoption of 
healthier food items and a healthier food environment generally, USDA 
organized HealthierUS School Challenge in 2004, a program that requires 
schools to meet a wide range of nutrition and physical activity goals. 
The HealthierUS nutrition goals are virtually identical to those in the 
proposed rule. Over 1,000 schools throughout the country are meeting 
those standards and have been awarded prestigious medals. (And, 
thousands of other schools already have met the nutrition standards but 
do not yet qualify for awards because of deficiencies in physical 
education or fundraising practices). There is untold skill and 
commitment among the key players--school food directors, industry, 
parents and students--to make the schools a laboratory in which our 
children can start the right nutritional practices to last a lifetime.
    While the HealthierUS award schools, as well as many others, have 
met the proposed standards within their customary reimbursement, the 
new law contains a 6-cent increase in the lunch reimbursement rate, the 
first such increase in over thirty years, which will help to pay for 
these improvements. The reimbursement increase, plus other financial 
changes in S. 3307, should enable the remaining districts to meet the 
higher nutritional requirements our children deserve. The most recent 
national study of the cost of preparing federally reimbursed breakfast 
and lunch meals, released in 2007, indicated that the median meal is 
prepared for between $0.15 and $0.35 below the free reimbursement rate.
Competitive Foods
    S. 3307 directs the Secretary of Agriculture to establish nutrition 
standards for all the food and beverages sold on school campus in 
competition with the USDA reimbursable meal. Improved nutrition 
standards may make competitive foods less appealing, but this is good 
policy. For one thing, the snack foods and sweetened drinks are less 
nutritious than the meals served in the cafeteria. For another, as many 
schools have witnessed, diminished competitive food sales have caused 
reimbursable meal sales to climb, increasing revenue for the cafeteria 
department and improving students' diets. And as reimbursable meals 
become the norm, the danger that only low-income students will 
patronize the USDA meal, and thus be identifiable, diminishes. Since 
California enacted state standards for foods and beverages sold outside 
the cafeteria in 2005, participation in NSLP has risen an average of 6% 
annually.
    The ease with which tighter standards for competitive foods have 
been established and implemented in over twenty states demonstrates the 
feasibility of improving the nutritional quality on school campuses. In 
addition, the consistency of national standards should simplify 
business for the food manufacturers and encourage them to formulate 
healthier foods for a national market. Finally, many food service 
directors will be pleased that, once national competitive food and 
beverage standards are implemented, these sales poses less of a threat 
to the higher reimbursement they can achieve with increased sales of 
reimbursable meals.
    How can the nutritional improvements be paid for? A theme of this 
statement has been the story of remarkable achievements in school 
districts across the country in improving the nutritional quality of 
their meals, making their cafeterias exemplars of healthy eating from 
which students and their families can learn--and having it be 
financially sustainable. These districts will not need more funding to 
get started: they are there. For them the additional reimbursement will 
facilitate further purchases of healthier foods. The proposed updates 
to the meal patterns and nutrition standards bring up the districts 
that have not yet started. For them the 6-cent increase in meal 
reimbursement will be the first increase (beyond USDA's annual cost of 
living adjustment) in thirty years. In addition, S.3307 appropriates 
$50 million for technical assistance so that USDA and the state can 
help and support the improvements the new standards call for.
    But for many local school districts, the most valuable monetary 
assistance Congress provided two policy changes to protect school food 
finances, and in particular, to ensure free and reduced rate 
reimbursements are available for schools to invest in the NSLP and SBP 
meals that students and their parents deserve.
    <bullet> Assurance that cash-strapped school districts do not 
overcharge the cafeteria fund for indirect costs.
    <bullet> Assurance that a la carte entrees and competitive foods 
provided by school food services are adequately priced to ensure they 
don't draw from the free and reduced price program to pay for labor and 
indirect costs.
    How does S.3307 support local leadership?
    The Healthy, Hunger-Free Kids Act of 2010 strengthens local 
administration and management of the child nutrition programs by 
providing numerous state options for local communities to draw down new 
grants to test out new and innovative strategies for enrolling 
students. The legislation affirms and strengthens the local school 
wellness policy provision enacted by Congress in 2004, through which 
local teams at school sites design locally appropriate strategies for 
fundraisers, parent engagement and integrate physical education into 
the school's health and wellness efforts.
    And, the bill leaves entirely intact the long tradition of locally 
developed menus that ought to be designed as close to the customers as 
possible. Local interest in purchasing local produce, i.e., Farm-to-
School, is supported in S.3307, but not mandated. Numerous other local 
school board decisions are left unchanged, such as whether to offer 
breakfast at school, when to schedule meals, how much of the food 
services budget is to be spent on food vs. labor vs. equipment, etc. 
S.3307 provides an important mix of new resources, expectations and 
opportunities for child nutrition programs, while respecting the 
program's greatest asset: the 55,000 food services professionals that 
prepare and serve 31 million students daily.
                                 ______
                                 
    Chairman Hunter. Thank you for your testimony.
    Now I would like to recognize Mr. Sackin for 5 minutes. And 
once again, thank you for feeding me when I was in high school. 
I appreciate it.

               STATEMENT OF BARRY SACKIN, OWNER,
                    B. SACKIN AND ASSOCIATES

    Mr. Sackin. Actually, I think I was in the district before 
you were born. [Laughter.]
    Chairman Hunter, Representative Kildee and members of the 
committee, thank you for this opportunity to appear before you 
and share some thoughts regarding proposed menu planning 
regulations for school meals. I ask the committee to accept a 
written copy of this testimony, as well as a more comprehensive 
review and analysis of the proposed rule.
    As the committee well knows, school meal programs have 
enjoyed strong bipartisan support since their inception more 
than 65 years ago. The many partners who work together on 
administering and supporting the program share a common 
interest in their success.
    Unfortunately, there is a perception that if we fix school 
meals, we can fix childhood obesity. But the reality is that 
school meals are already the healthiest meals that many 
children eat.
    Schools are a key partner in combating obesity by providing 
healthy meals, setting an example by offering a healthy 
environment, and teaching children to make healthy choices. And 
for this to remain true, the school meal programs must be 
available and remain viable for schools to offer.
    There is great concern that the proposed rule will 
sacrifice what is very good in pursuit of the perfect. While in 
an ideal world, many of the recommendations contained in the 
proposed rule are very desirable, the reality is that some of 
them may undermine student access and participation, in part, 
by increasing costs at all points along the supply chain to a 
point where the program is no longer sustainable.
    The proposed regulation would reduce sodium in school 
breakfast by 25 percent over current levels in phases over a 
10-year period. For school lunch the reduction is 54 percent.
    To achieve this, and I quote from the rule, ``Findings 
showed that school meal planners can reduce sodium by 
approximately 10 percent through many modifications. Industry 
can reduce sodium in school food products by approximately 20 
to 30 percent using current technology. The remaining deduction 
requires innovation.'' However, the sodium targets have been 
set without speculating when or how the innovation will occur. 
And innovation is not without cost.
    The proposed rule's gradual reduction will require several 
iterations of new products. For manufacturers, in addition to 
the considerable cost of development, each new product brings 
risks.
    First and most obviously is the risk that customers will 
find the product unacceptable. Then there is the risk of 
offering or not offering both the current version of the 
product and the reformulated one.
    There is cost to both the processor and the distributor of 
its products in carrying, inventorying and offering more items, 
and ultimately, all of these costs must be reflected in the 
price charged.
    One of eight points where the proposed regulation makes a 
major change that was not included in the IOM recommendations 
is the crediting of tomato products. Under current guidelines 
tomato paste and purees are credited in a school meal on an 
``as if full strength'' standard.
    The proposed rule would require crediting on the basis of 
the volume of the product used. I have attached a graphic that 
clearly shows what the proposed change means. A tablespoon of 
tomato paste, which is a condensed form of tomatoes, is equal 
to three whole tomatoes and is contained within a quarter cup 
serving of spaghetti sauce. This currently is credited one-
fourth of a cup of vegetable in a school meal.
    Under the proposed rule the requirement would increase to 
three tablespoons of tomato paste, equal to nine tomatoes, and 
would triple the serving size to three-quarters of a cup of 
spaghetti sauce. This represents an enormous increase in direct 
costs from 9 cents per serving to $.27 per serving, an increase 
of $.18 per portion that students may find overwhelming.
    Similarly, the proposed rule goes beyond the IOM 
recommendations by limiting so-called starchy vegetables, 
including potatoes, corn, peas and lima beans. The purported 
reason for this addition is to increase the variety of 
vegetables offered in the school meal program. This doesn't 
necessarily equate to an increased consumption of these more 
varied vegetables.
    I have provided a chart that shows that potatoes, even 
baked french fries, are more nutrient dense and fit within the 
schools budget better than many ``healthier'' foods.
    The proposed--and ``healthier'' in quotation marks--the 
proposed rule also makes major changes in the bread grain 
component for school meals, moving to a requirement that half 
of all items credited in the school meal program be whole grain 
or whole grain rich on implementation and that all items meet 
this standard after 2 years.
    Among other challenges, the definition of whole grain and 
whole grain rich has not been clearly provided. FDA and USDA 
have different guidance on this, so manufacturers are uncertain 
as to what changes they need to make in reformulating products 
to meet the proposed regulation. As previously discussed, there 
is enormous cost to manufacturers to make these changes, and 
uncertainty adds to the cost.
    For meat and meat alternate, which is generally the center 
of the plate item in school meals, the proposed rule requires a 
wide range of portion sizes. Even if the only difference is 
size, manufacturers must respond to the different requests for 
more than 14,000 school districts in this country and must 
either offer items in multiple portion sizes or not have 
products that some customers request.
    Each change in portion size adds cost in development, 
production, packaging, labeling, marketing, inventory and 
distribution. These costs inevitably end up in the price 
charged.
    In summary, school meals are healthier now than ever and 
serving millions of America's children. They are better than 
many of the alternative options available to children.
    No one disagrees with the goals of further improvements to 
the program, as schools and manufacturers continually 
demonstrate. Our concern is that the proposed regulation may 
result in having the opposite effect to that which it desires, 
driving up costs and driving children and businesses out of the 
program, to the detriment of all. Thank you.
    [The statement of Mr. Sackin follows:]

            Prepared Statement of Barry Sackin, SNS, Owner,
                        B. Sackin and Associates

    Chairman Hunter, Representative Kildee and members of the 
Committee, thank you for this opportunity to appear before you and 
share some thoughts regarding the proposed menu planning regulations 
for school meals. I am Barry Sackin, a consultant in the field of child 
nutrition and school meals with more than thirty years experience in 
our industry. While I testify today as an individual, from extensive 
conversations with a broad range of my colleagues who support and serve 
school meals, I believe there is consensus about many of the concerns I 
share with you today. I ask the committee to accept a written copy of 
this testimony, as well as a more comprehensive review and analysis of 
the rule proposed by USDA in January on nutrition standards for school 
meals.
    As the Committee well knows, school meal programs have enjoyed 
strong bipartisan support since their inception more than sixty-five 
years ago. The many partners who work together on administering and 
supporting the programs share a common interest in their success.
    Unfortunately, there is a perception that if we ``fix school 
meals'' we can fix childhood obesity. But the reality is that school 
meals are already the healthiest meals that many children eat. The fact 
that too many children start school already overweight certainly 
suggests that schools aren't the cause. A study by Ohio State 
University found that children in kindergarten were more likely to 
experience unhealthy weight changes when school is out. Schools are a 
key partner in combating obesity by providing healthy meals, setting an 
example by offering a healthy environment, and teaching children to 
make healthy choices. And for this to remain true, the school meal 
programs must be available and remain viable for schools to offer.
    To be very direct, there is great concern that the proposed rule 
will sacrifice the very good in pursuit of the perfect. While in an 
ideal world, many of the recommendations contained in the proposed rule 
are very desirable, the reality is that some of them may undermine 
student access and participation, in part by increasing costs at all 
points along the supply chain to a point where the program is no longer 
sustainable.
    I would like to spend the next few minutes explaining what this 
means. The analysis submitted to the Committee as part of this 
testimony goes into more detail and covers more issues, but I've 
selected just a few examples to discuss.
    One of the more challenging provisions in the proposal relates to 
sodium. Salt is an essential nutrient for humans for a number of 
reasons. However, a recent report of the Institute of Medicine and the 
current edition of the Dietary Guidelines for Americans both recommend 
that we significantly reduce our sodium intake to the same therapeutic 
levels prescribed for cardiac patients. On the other hand, a study 
published May 4 of this year in the Journal of the American Medical 
Association followed more than 3,600 middle-aged Europeans, who did not 
have high blood pressure at the beginning of the study, for almost 
eight years. The study found an increase in fatal heart disease among 
those with low sodium consumption, and a much lower incidence among the 
highest consumers. In response, the CDC commented that the study 
provides insufficient data to draw a conclusion about the impact of 
sodium on cardiac risks. That is exactly the point. There is 
uncertainty in the science of sodium, and there is no study that I am 
aware of on the impact of a low sodium diet on children. In the absence 
of certainty, the proposed regulations seem excessive.
    That said, industry is not challenging the Dietary Guidelines 
direction on sodium, but we also recognize that it will take time to 
achieve the level of reduction called for in both the Proposed Rule and 
the DGA 2010. The changes must happen on several levels: how salt is 
used in preparing food, the amount of salt and salty foods people 
consume, and the development of alternatives that can replace the many 
functions that sodium serves including food safety and preservation, 
leavening, binding, and flavor enhancement.
    The proposed regulation would reduce sodium in school breakfasts by 
25% over current levels in phases over a ten year period. For school 
lunch the reduction is 54%. To achieve this, and I quote from the rule, 
``Findings showed that school menu planners can reduce sodium by 
approximately 10 percent through menu modification. Industry can reduce 
sodium in school food products by approximately 20 to 30 percent using 
current technology. The remaining reduction requires innovation.'' 
However, the sodium targets have been set without speculating when or 
how the ``innovation'' will occur.
    Innovation is not without cost. One manufacturer calculates that 
switching to a low sodium vegetable base in their products costs 30% 
more than the standard vegetable base. Every time a processor 
reformulates a product, there is cost in money and time. For one 
example, companies that produce bread items are evaluating chemical 
leavening agents to replace salt. However, these items may cost thirty 
times more than salt, and the final result may be both less acceptable 
and less healthy than the salt it is replacing.
    The proposed rule's gradual reduction within current technology 
will require several iterations of new products. For manufacturers, in 
addition to the considerable cost of development, each new product 
brings risks. First and most obviously is the risk that customers will 
find the products unacceptable. Then there is the risk of offering, or 
not offering both the current version of a product and the reformulated 
one. There is cost to both the processor and the distributor of its 
products in carrying, inventorying, and offering more items. And, 
ultimately, all of these costs must be reflected in the price charged.
    Moving on from sodium, one of eight points where the proposed 
regulation makes a major change that was not included in the IOM 
recommendations is the crediting of tomato products. Under current 
guidelines, tomato pastes and purees are credited in a school meal on 
an ``as if full strength'' standard. The proposed rule would require 
crediting on the basis of the volume of the product used. I have 
attached a graphic that clearly shows what the proposed change means. 
For example, a tablespoon of tomato paste, which is a condensed form of 
tomatoes, is equal to three whole tomatoes and is contained within a 
\1/4\ cup serving of spaghetti sauce; this is currently credited as 
one-fourth cup of vegetable in a school meal. Under the proposed rule, 
the requirement would increase to 3 tablespoons of tomato paste, equal 
to nine tomatoes, and would triple the serving size to \3/4\ cup of 
spaghetti sauce. This represents an enormous increase in direct cost, 
from 9 cents per serving to 27 cents per serving--an increase of 18 
cents per serving. In addition this serving size is far more than what 
is considered a reasonable, acceptable portion by children and will 
potentially end up in the trash. It is also likely that many other 
popular items that include tomato paste may no longer be either 
affordable or acceptable. One tomato processor estimates that this 
proposal will put at risk more than 200 million pounds of tomato paste 
used in the school meal program.
    Similarly, the proposed rule goes beyond the IOM recommendations by 
limiting so called ``starchy vegetables'' including potatoes, corn, 
peas and lima beans. The purported reason for this addition is to 
increase the variety of vegetables offered in the school meal program. 
This doesn't necessarily equate to an increased consumption of these 
more varied vegetables.
    What makes the restriction on starchy vegetables odd, is that, when 
you look at the nutrient profile of potatoes, they are much more 
nutrient dense than many of the fruits and vegetables that are being 
encouraged. And the cost of replacing potato items on school menus is 
significant. I have provided a chart that shows the relative nutrient 
value and cost of apples and potatoes, both fresh and oven baked French 
fries. The most expensive and least nutritious is the apple. That is 
not to denigrate the apple, but underscores the challenge of the 
proposed rule.
    In addition to the uncertain rationale, both nutritionally and in 
terms of cost, of limiting starchy vegetables is the impact such a rule 
will have on agricultural markets. If schools are no longer able to 
menu these vegetables as often as children would like, what will happen 
to support for these markets? A similar problem exists in the dairy 
market, where the menu incidence of cheese is likely to significantly 
decline due to the sodium requirements.
    The proposed rule also makes major changes in the bread/grain 
requirements for school meals, moving to a requirement that half of all 
items credited in the meal program be whole grain or whole grain-rich 
on implementation, and that all items meet this standard after two 
years. Among other challenges, the definition of whole grain and whole 
grain-rich has not been clearly provided. FDA and USDA have different 
guidance on this. So, manufacturers are uncertain as to what changes 
they need to make in reformulating products to meet the proposed 
regulation. As previously discussed, there is enormous cost to 
manufacturers to make these changes, and uncertainty about what the 
demand will be. The timeline for formulation of new or modified 
products varies from six months to two years, and attributable costs 
match this. All of this uncertainty just adds costs.
    Given sufficient time and certainty, the whole grain/whole grain-
rich goal is manageable, though not inexpensive. But the proposed rule 
has unattainable targets and the associated costs related to making 
them have been severely underestimated if not stated at all. For 
example, the USDA file price for whole wheat flour is 20% higher than 
the price of regular flour.
    For meat/meat alternate, what is generally the center-of-the-plate 
item in school meals, the proposed rule requires a wide range of 
portion sizes, even if the only difference is size. To achieve the 
range of calorie requirements for three different age groups, and there 
are a range of permitted proportions within an age group. Manufacturers 
must respond to the different requests from more than 14,000 school 
districts in this country, and must either offer items in multiple 
portion sizes, or not have products that some customers request. Each 
change in portion size adds cost in development, production, packaging, 
labeling, marketing, inventory and distribution. These costs inevitably 
end up in the price charged.
    Finally I would like to talk briefly about some indirect impacts as 
they relate to schools, although the other witnesses present much more 
data about the impacts. I give great credit to USDA for making a much 
more honest and realistic set of assumptions and conclusions than the 
IOM report, for which I was an External Reviewer. However, those 
estimates suggest a great threat to the programs.
    Specifically, USDA projects that the cost of producing a school 
breakfast will increase by 50 cents, with no additional resources to 
defray these costs. Lunch is less at 14 cents with an incentive 
increase of 6 cents for schools that meet the new targets. For some 
school districts, an increase of 50 cents for breakfast will result in 
terminating their breakfast programs, a travesty after twenty years of 
increasing participation, as it may leave millions of low income 
children without access to this beneficial program.
    It is important to note that USDA's cost projections were completed 
using data that is almost 10 years old and does not take into account 
current economic conditions, rising fuel prices, and increased food 
costs. This means the true ``added costs'' may be far more severe than 
IOM or USDA ever anticipated. That notwithstanding, based on USDA 
calculations, costs for the programs will increase by $6.8 billion over 
the first five years, and approximately $1 billion per year after that. 
For ten years, this comes to almost $12 billion.
    There is also concern that participation in the lunch program will 
decline when meals offered to children no longer meet their preferences 
and tastes, or are no longer affordable because of price increases made 
to offset the increased costs. This may mean that rather than 
participating in a program that provides a nutritious meal, they turn 
to any of a variety of alternatives that are far less healthy.
    But the other impact of these changes is a decline in the sale of 
food items by American agriculture and businesses to the school meal 
program. This decline affects the production economies that make it 
affordable to serve this market.
    I would like to take just a moment to comment on one other change 
that came out of the Healthy, Hunger-free Kids Act. Section 205 of the 
act would mandate that school districts raise the price paid by non-
needy students to a level comparable to the Federal reimbursement rate 
for free meals. There is much to be said about this provision, but I 
would simply suggest that local school boards are in a much better 
position to determine what families in their community can afford than 
a one size fits all approach.
    In summary, school meals are healthier now than ever, and serving 
millions of America's children. They are better than many of the 
alternative options available to children. No one disagrees with the 
goals of further improvements to the programs, as schools and 
manufacturers continually demonstrate. Our concern is that the proposed 
regulation may result in having the opposite effect to that which it 
desires, driving up costs, and driving children and businesses out of 
the program, to the detriment of all.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Hunter. Thank you for your testimony.
    I would like to not recognize somebody we are honored to 
have here, the chairman of the full committee, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    And thanks to all the panelists for traveling here from San 
Diego and around the country. It is nice to have you here. I 
appreciate your testimony.
    Mr. Sackin, let me start with you, if I could. You have 
already touched on this, but I want to explore the idea of 
increasing costs that will occur at all points on the supply 
chain with the implementation of the Department of 
Agriculture's new nutrition standards.
    Can you flesh that out a little bit and give us some 
details, things that we might not be expecting to see?
    Mr. Sackin. I have talked to a number of companies. For one 
thing, every new product that the company brings to market 
costs on the low side, if it is a minor modification, 35,000 on 
new costs for development. On the high side, companies are 
telling me it could go between $200,000 and $300,000.
    That includes changes in labeling, marketing, packaging, 
and to an uncertain market, because they don't know if the 
product that they are preparing is one that students are going 
to accept or that schools are going to be ordering, which 
creates a problem.
    For growers, there is uncertainty. The limitation on 
starchy vegetables will significantly impact the amount of 
these products that are purchased by schools.
    This last year the USDA purchased a significant amount of 
bonus potatoes to support the agriculture segment, to support 
potato growers. And if schools stop ordering it, what are we 
going to do to support our agriculture community?
    The same thing with sodium. USDA has proposed a new low 
sodium processed cheese product, which they are estimating will 
be about 180 milligrams of sodium per one-ounce portion, which 
puts it at 50 percent over the amount of sodium that is 
available for the center of the plate in a school lunch. You 
know, what happens to the production, what happens to our dairy 
farmers, if schools stop ordering cheese?
    Distributors will experience additional costs, as will the 
processors, in what is called slotting. There is a limited 
amount of space in a warehouse, and each manufacturer has the 
opportunity to have only so many items available. To add items, 
to add warehouse space is going to increase costs for the 
distributor. And all of those costs inevitably make it to the 
prices charged to the schools.
    Mr. Kline. Thank you.
    Ms. Castaneda, you touched on something that was much 
debated and much discussed here when the legislation was 
passed. And that is the importance of the local school boards 
having control of their own meal pricing.
    Ms. Castaneda. Yes.
    Mr. Kline. Can you expand a little bit on what the impact 
of this law will be on the loss of that control?
    Ms. Castaneda. Well, generally, and that was when I was 
discussing the equity in meal pricing, and with the new 
proposed rule, there is a formulary in there to come to that 
pricing that is used nationwide. And generally, that control is 
at the school board level.
    So now if you would put your numbers together and you 
determine your average price of a meal by looking at the 
federal reimbursement of a paid lunch and the federal 
reimbursement of the free lunch, and for myself, that comes to 
a price of $2.46. So that is my average price to compare.
    So if I were school district that needed to raise my price, 
I would take that average, I would multiply it by there is an 
inflation factor, and I would determine whether or not I need 
to increase it.
    And a lot of the increases you are seeing are only about 
five cents. They don't really want you to go up beyond $.10, 
but you would take that information and say I needed to raise 
my meal price a nickel. I would take it to the school board.
    The school board would vote on whether or not they are 
going to permit that increase. The school board has that 
authority. They can agree to that, and then you are good to go, 
or they could tell you, ``No, we are not going to agree with 
that. We don't want to raise prices.''
    And a lot of schools are kind of fighting that dilemma. 
They don't want to raise their taxes, and they don't want to 
raise the prices because of the economic state today. So you 
are kind of left in the middle. What do I do? You know, I am 
stuck between the government regulation and my school board. 
What kind of a decision do I make? You are stuck in the middle.
    There is leeway today for next year, where the state will 
allow you to use nonfederal money to cover that gap, if you 
don't increase your price. So our state reimbursement would be 
about $.10 a meal. We could use that to cover, if I needed to 
increase my price. The following year is unknown.
    Mr. Hecht. Congressman Kline, I wonder if I might 
contribute to the answer.
    Mr. Kline. Yes, certainly.
    Mr. Hecht. Thank you.
    First of all, the evidence shows that there are many 
districts that won't be affected by this at all. Secondly, as 
Ms. Castaneda said, many districts will be able to rely on the 
state contribution. It is true in Pennsylvania. It is true in 
California and a large number of other states.
    The school board retains the discretion to set prices for 
meals. All that S. 3307 says is that you can't take the money 
away from low-income children, to whom the Congress intended 
that it go. Other sources of money would be fine. It is just 
that they don't want to dilute the money that is there to build 
nutrition. They want to add to it.
    Mr. Kline. Thank you.
    I know Mr. Sackin wanted to weigh on that, but I see that 
the light has turned red. Perhaps someone else give him an 
opportunity. I thank the chairman.
    Chairman Hunter. Thank you, Mr. Chairman, for being here 
today.
    I would like to now recognize the ranking member from 
Michigan, Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman.
    In the 35 years I have been in Congress, we have always 
discussed in various areas on both of my committees how federal 
dollars relate to federal standards. And there has always been 
a debate on that and a question whether these are reasonable 
standards. We do it for automobiles. For example, we require 
seat belts and airbags, standards for tires.
    Ms. Castaneda, do you feel that that principle should be 
maintained in school lunch that there at least be minimal 
federal standards for the school lunch program, which is paid 
for through the federal dollars?
    Ms. Castaneda. You are asking if I believe that there 
should be minimum federal standards----
    Mr. Kildee. Yes.
    Ms. Castaneda [continuing]. As there are today?
    Mr. Kildee. Yes.
    Ms. Castaneda. I think we always need to have federal 
standards for a program that is funded with federal and state 
dollars. I think the question is where are we going with those 
standards. But we definitely need to have standards in place. 
We want to make sure we are following their program as it is 
set to be, that we are feeding children and, you know, we are 
feeding them healthy meals. So most of us, you know, intend 
that we are doing that.
    Mr. Kildee. Do you feel that we have come close to having 
reasonable standards?
    Ms. Castaneda. In the proposed rule?
    Mr. Kildee. Yes.
    Ms. Castaneda. I would have to say that I think those 
standards in the proposed rule, many of them are too 
restrictive. I think with the standards that are in place today 
for the national school lunch and breakfast that we are 
following today, and then comparing them in the proposed rule, 
I think some of those new standards in the proposed rules are 
too restrictive. And I think that there is a middle ground in 
there that we could come to.
    Mr. Kildee. Are they too restrictive because of cost or 
because of just reasonableness, or because they don't fit 
perhaps with certain groups' idea of what is best nutrition?
    Ms. Castaneda. I would say there is definitely cost, as we 
looked at when I was discussing. And I was using USDA's number 
of 50 percent increase in the breakfast cost per meal and 14 
percent in the increase in the lunch cost per meal.
    And those are antiquated. They are, I believe, 10 years 
old, but that is the only data that is written out there. So 
there is definitely an increase in food costs. That is one 
increase.
    And acceptability, that would be on the level of child, 
meaning as we come to put in meals that have less sodium, how 
is the taste acceptability for the child? Would they eat that? 
Do you know what I mean? Or would they throw it in the garbage?
    So there are costs. There is acceptability and, you know, 
what is reasonable when we are talking about children. And even 
when we are talking about portion sizes, vegetables, and we are 
talking about going from one cup today to two cups, how much of 
that can they actually eat? And what is the reasonable portion 
size?
    Mr. Kildee. Is there increased cost now under the proposed 
rule? If you feel there will be increased costs aside from the 
extra vegetables being required, are there other increased 
costs, sort of these proposed----
    Ms. Castaneda. Yes, I believe that there is additional 
increased cost other than the food costs, because if you are 
looking at preparing more meals from scratch, you are looking 
at an increase in labor cost. If you are looking at 
participation labors, and we are believing that with the new 
proposed rule that participation will drop off, you can say 
there is a cost associated with lost revenue.
    And in general, yes, there will definitely be some increase 
in costs--food costs, labor costs, and loss of revenue.
    Mr. Kildee. But the proposed standards certainly weren't 
something that was pulled out of the air. They had some 
objective criteria, which they evaluated. Do you think they 
misread the objective criteria or they had a bias that led them 
to some of the rules and regulations that you feel are not 
appropriate?
    Ms. Castaneda. Congressman Kildee, I think that there is so 
much passion behind the proposed rule, and there is so much 
desire to improve the health of our nation's children, that I 
think in the proposed rule we just went a little too far--not 
by anyone's fault, because I believe, you know, the passion was 
there to do the best for our children. But I think we just went 
a step too far with some of the restrictive ideas and changes 
of that proposed rule.
    Mr. Kildee. Yet so this is a matter of opinion, judgment, 
facts that are available to people on these decisions. But this 
group that finally put together the proposed regulations, they 
certainly did have a degree of expertise and availability of 
expertise to come up with these, did they not?
    Ms. Castaneda. I would believe that you are correct in 
saying that they did, but some of the research that is out 
there, such as if you look at the sodium levels, there is no 
research on that level of low sodium foods and children 
consuming those foods to see the outcome of that.
    So I know that there are studies, and they are looking at 
statistics and things and disease states and things like that 
in making those decisions, but in actuality we haven't put the 
standards in place.
    Mr. Kildee. Just to summarize, I mean, we both want to do 
what is best and right for these kids. We may disagree what is 
best and right and reasonable.
    Ms. Castaneda. I think we would all say we want to do what 
is best for the kids, and we want to have it viable for 
everybody who is involved to make it happen.
    Mr. Kildee. Thank you very much, Ms. Castaneda.
    Ms. Castaneda. Thank you.
    Chairman Hunter. Thank the ranking member.
    I would like to recognize myself for 5 minutes.
    One, it sounds like with the last question--it sounds like 
we had a saying in the Marine Corps, ``Good initiative, bad 
judgment.'' And just looking at the serving size for the kids 
for breakfast, if you have kids, I mean, good luck trying to 
get your kids to eat this in the morning.
    And I can see what happens if you think that it might get 
thrown away? What if it gets turned back in? Is there a way to 
turn it back in? Do they get credits or anything? Or does it 
have to get thrown away, and you move on to the next serving?
    Ms. Castaneda. That would depend on the item. Most items we 
would have to discard. Some things we might be able to reuse. 
Some things there would be a food safety problem, if the child 
has already had it. If it is, you know, like a package of 
crackers, we might be able to reuse it, but if it is, you know, 
half of a sandwich, you really can't.
    Chairman Hunter. Thank you.
    And playing off Mr. Kildee's last question, Mr. Sackin, 
your testimony states that USDA's cost projections that they 
used for this data, it is about 10 years old. So if you bring 
that up to current--whatever the inflation difference is and 
what costs are now with gas and everything else, how do you 
think it is going to affect? Do you think--let us just make it 
easy. What is going to happen to those costs that were used, 
that the projections were made, using 10-year-old data?
    Mr. Sackin. I would estimate, and I am sure the Ag 
economists can give a much better projection on advancing the 
costs that were used in making the estimates, but I think the 
costs were probably very conservative, which we are in a 
position where we need to balance. And as I said at the 
beginning of my testimony, we are sacrificing the very good for 
the perfect.
    And the increased costs, we have to balance the nutritional 
goals of the program with the ability of schools to actually 
sustain them, the additional costs.
    And a tremendous concern to me and a lot of my colleagues 
is that the increased cost for breakfast is going to undermine, 
you know, 20 years of progress in expanding breakfast programs, 
because I have heard from directors all over the country they 
are going to drop the breakfast program. So I think these costs 
and the cost estimates are low.
    I would also, if I may, following up to Mr. Kildee's 
question, and it is back to my point that school meals may be 
the healthiest option for most children. Children ages two to 
five, when they get to school, there is an 11 percent rate of 
overweight and obesity in 2-to 5-year-olds. They are overweight 
before they get to schools.
    So to drive kids out of the program by making them 
unaffordable and unsustainable, when that may be the healthiest 
option and where they go to will actually exacerbate the 
obesity problem, seems against the purpose of what the 
regulation hopes to achieve.
    You know, between the preschool obesity rate and the 
obesity rate when they are in elementary school, that only 
grows by 4 percent. So schools--and when kids aren't in school, 
they have healthier weight management--or when they are in 
school than when they are not.
    So I think that, again, we have to try and balance the 
costs and the benefits against losing some of the great gains 
we have made through these programs.
    Chairman Hunter. And diminishing returns, it sounds like, 
too.
    Ms. Spero, in your testimony you said that USDA's proposal 
to switch from nutrient-based menu planning to food-based 
planning will be less accurate and less effective in improving 
overall nutrition. Can you please describe for us the current 
nutrition-based practice and the effects that switching to a 
food-based menu is going to have?
    Ms. Spero. With the nutrient standard menu planning, we can 
get very precise estimations of exactly what the meal that 
child is going to have, and then we make adjustments to the 
meal before it is ever served to a child. With food-based, the 
standards are much more arbitrary, and they are less flexible.
    So, for example, if we wanted to serve lunch that had a 
chef's salad, and we found out that our meal had too much fat 
in it, under nutrient standard we might go back and take some 
of the cheese off a chef salad, whereas with food-based we 
would not be able to do that, because it would have to have a 
minimum amount of cheese on it. That would be one example.
    Chairman Hunter. Yes. I would just like to say in my last 
30 seconds seems again like there is an earnestness and, you 
know, the Department of Agriculture is trying to do what is 
right. But they can't reach down and be in San Diego and know 
what is needed in San Diego.
    They can't make laws. There is, as we are learning for all 
of education, no one size fits all, no matter how earnest they 
want to be and how healthy they want to make kids.
    What also strikes me with the sodium debate, you could 
probably pull up different studies right now showing what 
sodium does to kids and what the long-term implications of 
taking too much sodium or too little sodium does. It is kind of 
like when Sweet'N Low used to be bad, and now it is good, or 
margarine or butter or all these different things. We found out 
that, you know, we should never eat them. Now all of a sudden 
they are actually prolonging lives.
    But thank you for your testimony.
    Now I would like to recognize Mrs. Davis, my colleague from 
San Diego.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I want to welcome all of you.
    And certainly, Ms. Spero, thank you so much for your 14 
years of service at San Diego Unified. As you know, most of 
your customers, I guess, are my constituents, and I really do 
appreciate that and enjoyed as a school board member working 
very closely with food services many years ago.
    I think the questions--I know that my colleague, Mr. 
Kildee, asked about the Institute of Medicine and setting those 
standards. And that sounds good to me that they would do that, 
because, frankly, it is not our job, really, to do that per se.
    But I am just wondering, you know, how you feel, how all of 
you, I guess, feel about the process that we are using right 
now to get your input. Are you comfortable with that? Do you 
think that that has been helpful?
    Mr. Hecht, it looks like you are ready to answer that 
question.
    Mr. Hecht. Congressman Davis, thank you for the question. I 
am entirely happy with the process as it is going. What is 
important to say is we haven't gotten to the end of the road 
yet. We are about midway. This process started in 2008, 2009. 
It is not going to end to about 2013, going at this steady pace 
that it is going at.
    For an advocate it seems like a lifetime to get caught up 
to what were the standards in, you know, in 2005. By the time 
these emerge they will be 8 years old, so it is hardly rocket 
science that we are talking about.
    The other important thing to point out is that most, if not 
all, that the statute and the meal patterns call for has been 
done in district after district. If we were only talking about 
San Diego, maybe you wouldn't need the federal government, 
because San Diego does a marvelous job. But the United States 
is not all San Diego, and there are lots of states and lots of 
school districts where children are suffering because of their 
address.
    Mrs. Davis. Yes, thank you. I know that. I know that 
everybody wants to get to the same thing here. And it is 
whether or not we can insulate the process in a way also that 
makes certain that everybody feels as if their input has been 
heard and it has gone through that kind of, I think, rigorous 
debate, even, that may be required.
    I think what you are saying is that there are a lot of 
things that already are very good and that we are doing, and we 
don't want to disrupt any of that. And I would agree.
    One of the issues, if I could just shift for a moment, the 
military children, they need to be certain that they, as they 
move from school district to school district, receive 
certification. In San Diego you know that state military 
families know the process, that paperwork that they need to 
fill out.
    I tried to have an amendment that would essentially make 
sure that they were certified automatically, once they put in 
their papers that they are military families and at certain 
economic levels, or I think it is everything below E6s, 
depending upon the number of children in their family.
    Is it something that would be helpful to have in districts? 
And how do you think we can get there, if that is desirable?
    Ms. Spero. That certainly has been an issue in San Diego. 
We see applications come in and have to be denied, because the 
income is just slightly over the level. And a vast majority of 
those are for military families, which is very disturbing to us 
in the department, who know that these families have a lot of 
extra stress to begin with. And we would like to be able to 
help them, but we are limited in our ability to do so.
    Mr. Hecht. One of the great steps forward in Senate Bill 
3307 is to expand on the process that is called direct 
certification so that children whose families are enrolled in 
certain public assistance programs are automatically qualified 
for free or reduced price school meals.
    It takes all the questions out of it. It takes all the 
obstacles out of it. It provides much greater integrity to the 
system than we have with paper applications. And it is showing 
families that by applying and going through the rigor of 
qualifying for some programs, they can qualify for the other 
related programs.
    Mrs. Davis. And for military families, that was not in the 
Senate bill, so it didn't actually become part of law.
    Mr. Hecht. It would be a great advancement.
    Mrs. Davis. Okay. That is helpful to hear.
    I know, Ms. Spero, one of the things that I love about San 
Diego Unified was the introduction of the salad bars some time 
ago. So I have some concern and some reservations when you say 
that that would be problematic because of the way that the food 
groups are counted and how much kids eat.
    So I certainly would hope that we can continue to look at 
that issue and work with all of you and make sure that 
everything is as sensible as humanly possible in this so that 
we can work with it and move forward.
    But I also do agree that what we want, I think, is for 
young children to not have perhaps the need for sodium levels 
that we have in our diet today. That is important that they 
develop that interest.
    The other thing just to throw out is the education piece 
within school districts that is needed to accompany any of the 
changes, or even exactly what you do today, so that families 
are aware of what you are doing and why and the benefits.
    Thanks so much.
    Chairman Hunter. I thank the gentlelady.
    I now recognize Ms. Woolsey for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman.
    I am in a little bit of a conundrum up here. It is so clear 
to all of us that obesity is--with our schoolchildren and with 
the school population--is one of our nation's number one 
problems with now and in the future, because as these kids grow 
up, their obesity is going to cause problems that are going to 
cost them and our country dearly.
    And when our witnesses are here totally responsible for 
feeding our schoolchildren and wanting nutritious meals, meals 
that are supported by taxpayers, who then need to make sure 
that these kids that are obese aren't on the taxpayer rolls 
forevermore with their illnesses, I mean, it is like a circle 
going round and round.
    And so then I am hearing from our witnesses concerns about 
too many fruits and vegetables, too much protein, and these 
questions about do we even know about sodium levels. Well, 
excuse me, this is the 21st century. We know that fruits and 
vegetables are important.
    Now, if we have got standards that say, you know, we are 
going to give that kid two apples and they are going to throw 
one away, that is silly. But there can't be such a thing as is 
too many of the good foods instead of giving them foods that 
are full of carbs and fats that they shouldn't be having.
    So my question is are you more worried about the cost of 
this, because, yes, fresh fruits and vegetables cost more than 
canned fruits and vegetables, and the transportation and the 
storage and the waste and not having a choice? Or is this 
really about, if we do this right, we are going to have to 
invest in our kids, I mean, which you would?
    I mean, are you worried that we are not going to invest in 
them, so it is going to all fall on you to have to carry the 
burden of doing the right thing? And I am not suggesting this 
is perfect, what we have laid out, but, I mean, sodium, for 
example. Are we going to wait until we know----
    By the way, Mr. Chairman, Sweet'N Low is not acceptable. 
There are better alternatives that still aren't very good, but 
we have learned this over the years. This is the 21st century.
    That is what I want to know. Is that the biggest concern is 
that we are going to dump it on you and say, ``Look, now, you 
make this all work, and we are not going to help pay for it.''
    Ms. Spero. My biggest concern would be that there are 
unintended consequences to these regulations and that there 
hasn't been sufficient time to research them or pilot them or 
test them to know the real outcomes of what happens when they 
serve them in real schools.
    Ms. Woolsey. Well, real outcomes in that the kids are going 
to get more obese, that they are going to hate the meals worse 
than the ones they already won't eat, or they are going to 
throw their food away, or that it is going to cost you too much 
money? What are the--I mean, I don't--I mean, if we paid for 
this whole thing, would we have time to be working out these 
consequences?
    Mr. Sackin. I think there are a couple of answers to that. 
And additional money, of course, would be helpful, but there 
are other issues within the regulation--in the proposal that I 
think would cause problems, even if there were more money 
available.
    I had the privilege of working with you in the 1998 
reauthorization on Meals for Achievement, and the goal then was 
to expand access, because the school meals are healthier and 
are the best way to help children learn and enrich their diet.
    One of my biggest concerns, and it is related to costs, if 
schools, because they cannot afford it, drop the breakfast 
program, all those gains and all that you were trying to 
achieve, that we were trying to achieve in 1998, are we going 
to lose those? You know, school meals currently are healthier 
than the other things that kids have access to.
    Ms. Woolsey. Well, Barry, I hear that, but I also hear that 
we would rather give them bad foods than--you are not saying 
that, but the risk is that they will get no food versus 
mediocre, okay? Let us put it that way. I wanted them to have 
good food, and I know you do, too. How are we going to get 
there?
    Mr. Sackin. Well, I think the argument, you know, the 
assumption that school meals--that we are not serving good 
food, I think, is an erroneous assumption. I think school meals 
are healthy. They are getting healthier all the time. Industry 
is working on reformulations and changes, as technology and 
innovation takes place, to make them even better.
    Ms. Woolsey. Well how----
    Mr. Chairman, can I have a second more?
    Chairman Hunter. I have given everybody about 30 seconds, 
actually, so about 10 seconds more.
    Ms. Woolsey. Okay, Ken, you get 10 seconds to tell us how 
we can make that better without giving up on improving.
    Mr. Sackin. I think some of the proposals----
    Ms. Woolsey. No, no, no. Oh, I wanted Ken Hecht. I am 
sorry, Barry.
    Mr. Hecht. How can you make the food better?
    Ms. Woolsey. Yes, I mean----
    Mr. Hecht. We are making the food better.
    Ms. Woolsey. Right.
    Mr. Hecht. In many districts that is happening. In some 
districts it is not happening. That is the need for these 
rules, regulations, and for the law in the first place.
    I just want to bring one thing to your attention. There was 
a report issued this week by the California Endowment looking 
at 10 areas in California where the schools have been working 
very hard to improve their food so that it is much healthier 
food. The costs have gone up, but the revenues have gone up 
astronomically. They are receiving 57 percent more revenue in 
these 10 districts averaged out than they were before they 
switched to healthier food. If you serve healthier food, the 
children will come.
    Ms. Woolsey. Okay. Thank you.
    Chairman Hunter. Thank you, all of you, for your testimony.
    And I would like to recognize Mr. Kildee for any closing 
remarks he may have.
    Mr. Kildee. Well, I want to thank the witnesses. I think 
all of us are interested in what is good for children. And we 
might have some variation in how we achieve that. We tried to 
find out objectively what is the best thing to do, and this is 
part of that process of finding that out, as is what is taking 
place in the present study that is going on. So we appreciate 
that.
    And I appreciate, Mr. Chairman, you having this hearing. It 
has been very, very helpful.
    Chairman Hunter. Thank the gentleman.
    And I want to say again thank you for coming out, 
especially those of you who came from San Diego.
    And the drive down from Pennsylvania might take a little 
less time, but thank you for coming down as well.
    I would like to just reiterate it seems this is a case of 
good initiative, bad judgment. And, you know, what is 
interesting, we didn't get into anything--if anybody has kids 
or you know people, you know, people have different body types, 
too. Kids do.
    My 10-year-old, my son eats clean. He is a clean living 
kid, but he stays on the heavy side. That is just the way it 
is. My 8-year-old daughter has abs, and she eats whatever she 
wants to. She eats all the frosting off the cake, and she is 
okay with that. That is just how people are.
    So my point is at the local level, truly, if it was left up 
to you, but subsidized by us, which is what this is, you could 
make those distinctions. But if this is passed down from on 
high, from out here in D.C. and with some bureaucrats in a big 
building that nobody gets to see, nobody ever talks to, it is 
going to make your job difficult, if not impossible, to be able 
to give individual kids what they need to--that really fits 
them.
    So good initiative, bad judgment. I have been accused of 
that a few times, too, but thank you very much for your 
testimony. Thank you for coming out.
    There being no further business, this subcommittee stands 
adjourned.
    [Questions submitted by Mr. Hanna for the record and their 
responses follow:]

   Responses From Ms. Castaneda to Questions Submitted for the Record

    1. It is my understanding that a potato contains more potassium 
than a banana, and one serving of potatoes has more fiber than one 
serving of broccoli. But despite potatoes having valuable nutritional 
attributes, they have been identified as ``nutrients of concern.'' Do 
you consider potatoes an important component when creating healthy 
meals for your students?

    Potatoes are incorporated into many of our menu selections. We 
include baked potatoes, roasted potatoes, and mashed potatoes, cream of 
potato soup, hash brown potatoes and baked French fries in our menus. 
Potatoes are an important source of nutrition and have a high 
acceptance with children. I believe the concern regarding potatoes 
revolves around French fries. The majority of schools serving French 
fries are baking them instead of frying. Limiting starchy vegetables to 
one cup per week does restrict the menu selection and reduces the 
availability of children's favorite vegetables.

    2. When implementing these school meal guidelines, what changes do 
you expect to occur in the program? Particularly what impacts do you 
see directly affecting your students?

    Students will be required to take extra portions of fruits/
vegetables at breakfast and lunch. If they should decline to take the 
required serving of fruits/vegetables they would not be able to 
purchase their meal at the standard price. The student would be charged 
under ala carte pricing and pay more. Moreover if the procedure of 
``Offer versus Serve'' is eliminated by districts, students will have 
to take the extra portions of fruits and vegetables and they may not be 
able to consume the full portion which will end up in the garbage. 
Secondly, the meals would become so restrictive they would be 
unpalatable to many students. The selection of foods available under 
the proposed rule for meal guidelines will depend on the products that 
manufacturers can offer or that districts can make from scratch. 
Students may decide that they no longer want to participate in the meal 
programs if they find the food unappealing. In addition, districts may 
need to raise prices to balance the expense of the increased food 
costs.

    3. What are other unintended consequences affecting children as a 
result of the new USDA regulations?

    The increased costs associated with the new meal pattern will 
affect breakfast programs, as school food authorities may determine it 
is too expensive to provide the breakfast meal. Therefore all of the 
efforts over the last few years to expand breakfast programs nationwide 
will have been futile as the proposed rule will lead to contraction of 
the school breakfast meal. When considering the food cost in general 
with the proposed rule, the impact of my own operation would be an 
additional $78,774 after adjusting for the increase in the Federal 
Reimbursement. Obviously, I may need to cut costs in other areas to 
make up for this loss. In today's economy school food service 
operations are expected to at least break-even or they will become 
unsustainable. With escalating retirement costs, the additional social 
security costs and the slashing of state budgets, there is no excess 
funding at the school level. Schools may be forced to withdraw from the 
National School Lunch and Breakfast program as it may become too 
expensive to operate under the proposed rule for meal guidelines. This 
will leave our programs serving fewer children then we do today which 
is the exact opposite of what we want.
                                 ______
                                 

     Responses From Ms. Spero to Questions Submitted for the Record

                                                     June 15, 2011.
Hon. Duncan Hunter, Chairman,
Subcommittee on Early Childhood, Elementary and Secondary Education, 
        2181 Rayburn House Office Building, Washington, DC 20515.
    Dear Representative Hunter: I am responding to the request for a 
response to additional questions raised by Representative Richard Hanna 
subsequent to the May 13, 2011 hearing entitled ``Examining the Costs 
of Federal Overreach into School Meals.''
    My response is attached. Please let me know if I may of additional 
service to you.
            Sincerely yours,
                                          Sally Spero, SNS.

                                                     June 15, 2011.
Hon. Richard Hanna,
U.S. House of Representatives, 2181 Rayburn House Office Building, 
        Washington, DC 20515.
    Dear Representative Hanna: I am responding to the request for a 
response to additional questions raised subsequent to the May 13, 2011 
hearing entitled ``Examining the Costs of Federal Overreach into School 
Meals.''
    My response is attached. Please let me know if I may of additional 
service to you.
                                           Sincerely yours,
                                                  Sally Spero, SNS.

    1. It is my understanding that a potato contains more potassium 
than a banana, and one serving of potatoes has more fiber than one 
serving of broccoli. But despite potatoes having valuable nutritional 
attributes, they have been identified as ``nutrients of concern.'' Do 
you consider potatoes an important component when creating healthy 
meals for your students?

    Everyone understands deep-fried foods, including potatoes, are not 
appropriate for school meals. But the overly strict proposed regulation 
on all potatoes is not the best way to offer healthy, attractive meals 
to the students we serve.
    In the San Diego Schools, we offer choices such as a baked potato 
stuffed with local, organic broccoli and topped with low-fat cheese 
sauce, oven-roasted potatoes as a side dish, and turkey and gravy with 
mashed potatoes. These fit into our menu plans, which I am proud to say 
already meet the proposed standards of less than 30% of calories from 
fat and less than 10% of calories from saturated fat. So you can see 
that it is perfectly possible to include potatoes and still serve 
healthy meals.
    Although potatoes have been getting a lot of publicity I want to 
mention that they are not the only vegetables being restricted under 
the proposal. Corn, peas and lima beans are also included. It is ironic 
that as we strive to have children eat more fruits and vegetables, the 
proposal reduces popular choices that they enjoy eating.

    2. When implementing these school meal guidelines, what changes do 
you expect to occur in the program? Particularly, what impacts do you 
see directly affecting your students?

    As previously mentioned, students will certainly observe that many 
of their popular vegetable choices such as potatoes, corn and peas are 
no longer widely available. And some of them will consume fewer 
vegetables than they currently do.
    In a school food service setting, where we teach students to select 
the foods they want and to only take those foods they plan to actually 
consume, the proposal works against these goals. The breakfast proposal 
requires a meal so large that I and my colleagues believe the children 
cannot reasonably eat it. Other requirements for lunches that students 
must take more food than they plan to eat in order to have reimbursable 
meals are troubling. This sends the oddest possible message to students 
about what healthy eating consists of and greatly adds to food waste.
    Disallowing nutrient-standard menu-planning in place of less-
accurate food-based menu planning is especially difficult when planning 
menus for vegetarian students. A number of popular choices such as 
pasta marinara and Asian vegetable and rice bowls would have to be 
eliminated from school menus because food-based menus have less 
flexibility. We have worked hard to include all students in our 
programs.
    If the final sodium rules are implemented as proposed, many foods 
will be so unpalatable that students will not eat them. The first two 
goals are achievable but the final proposal is less sodium than is 
allowed for a cardiac patient in a hospital setting. For example, a 
minimal breakfast of one cup of milk, one cup of unsweetened corn 
flakes and one slice of plain toast contains more sodium than is 
allowed and no one would think this is a particularly salty meal.

    3. What are other unintended consequences affecting children as a 
result of the new USDA regulations?

    The unfunded breakfast meal requirements may put districts in the 
position of having to discontinue breakfast programs because they 
cannot afford them. Even though the size of the meal nearly doubles, no 
funding is provided for the extra cost. This negates decades of work to 
build up these programs and could cause millions of children to lose 
access to school breakfast entirely.
    My colleagues and I strive to have the cafeteria be a welcoming 
place where attractive and healthy meals are served. While well-
intentioned, the proposed regulations would benefit from a thorough 
review to address the legitimate concerns raised by a number of groups. 
Overall, I am concerned that fewer students will participate and that 
the program will stigmatize the free and reduced-price eligible 
students as they will be almost be the only ones using it.
                                 ______
                                 
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
